<html>
<title> - EDUCATION REGULATIONS: BURYING SCHOOLS IN PAPERWORK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         EDUCATION REGULATIONS:
                      BURYING SCHOOLS IN PAPERWORK

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 15, 2011

                               __________

                           Serial No. 112-12

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
 65-010 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Richard L. Hanna, New York           Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush D. Holt, New Jersey
Kristi L. Noem, South Dakota         Susan A. Davis, California
Martha Roby, Alabama                 Raul M. Grijalva, Arizona
Mike Kelly, Pennsylvania             Mazie K. Hirono, Hawaii
[Vacant]                             Lynn C. Woolsey, California













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 15, 2011...................................     1

Statement of Members:
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Grable, Charles, assistant superintendent for instruction, 
      Huntington County Community School Corporation (HCCSC).....    15
        Prepared statement of....................................    16
        Additional submission: ``HCCSC Strategic Planning 
          Guidebook,'' Internet address to.......................    20
    Grimesey, Robert P., Jr., Ed.D., superintendent, Orange 
      County Public Schools......................................     6
        Prepared statement of....................................     8
    Marshall, Jennifer A., director, domestic policy studies, the 
      Heritage Foundation........................................    20
        Prepared statement of....................................    22
    Willcox, James, chief executive officer, Aspire Public 
      Schools....................................................    10
        Prepared statement of....................................    12

 
                         EDUCATION REGULATIONS:
                      BURYING SCHOOLS IN PAPERWORK

                              ----------                              


                        Tuesday, March 15, 2011

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Duncan Hunter 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hunter, Kline, Petri, Biggert, 
Platts, Foxx, Hanna, Barletta, Noem, Kelly, Kildee, Scott, 
McCarthy, Hirono, and Woolsey.
    Staff present: Katherine Bathgate, Press Assistant; James 
Bergeron, Director of Education and Human Services Policy; 
Colette Beyer, Press Secretary-Education; Kirk Boyle, General 
Counsel; Casey Buboltz, Coalitions and Member Services 
Coordinator; Heather Couri, Deputy Director of Education 
Policy; Daniela Garcia, Professional Staff Member; Jimmy 
Hopper, Legislative Assistant; Barrett Karr, Staff Director; 
Mandy Schaumburg, Oversight Counsel; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; Alissa Strawcutter, 
Deputy Clerk; Tylease Alli, Minority Hearing Clerk; Jody 
Calemine, Minority Staff Director; Jamie Fasteau, Minority 
Deputy Director of Education Policy; Brian Levin, Minority New 
Media Press Assistant; Kara Marchione, Minority Senior 
Education Policy Advisor; Megan O'Reilly, Minority General 
Counsel; Alexandria Ruiz, Minority Administrative Assistant to 
Director of Education Policy; Melissa Salmanowitz, Minority 
Press Secretary; and Laura Schifter, Minority Senior Education 
and Disability Policy Advisor.
    Chairman Hunter [presiding]. A quorum being present, the 
Subcommittee will come to order. Good morning. Welcome to the 
Subcommittee's first hearing of the 112th Congress. I would 
like to thank our witnesses for being with us today. We look 
forward to your testimony.
    During today's hearing, we will examine the adverse impact 
extensive federal regulations and reporting requirements have 
on teachers, administrators and students in elementary and 
secondary schools. Here is what we know. Too many schools and 
school districts are overwhelmed by unnecessary paperwork 
requirements. Currently, the paperwork burden imposed by the 
Department of Education is larger than that of the Department 
of Defense, the Department of Energy, the Department of Housing 
and Urban Development, the Department of Interior and the 
Department of Justice.
    From 2002 to 2009, the Department of Education's paperwork 
burden increased by an estimated 65 percent, an astounding 
number that continues to grow. States and local school 
districts that accept federal funds are required to meet 
federal reporting requirements. These regulations are usually 
costly, intrusive and redundant and can create unnecessary 
hurdles for K-12 schools. More often than not, compliance with 
these mandates forces schools to redistribute scarce resources 
that should be dedicated to fostering innovation in our 
classrooms.
    Recently, the Administration proposed a 10.7 percent 
increase in the Department of Education's budget. As the 
federal role in federal spending in education has grown, so has 
the volume of regulations associated with education laws. It is 
important to note that on average, only about 10 percent of a 
school's budget comes from federal funds, which is 
disproportionately small when compared to the amount--to the 
cost of reporting requirements.
    During a recent hearing in this committee, we learned from 
school officials that the regulatory burden created by 
receiving federal funds often outweighs any potential benefits. 
The testimony of the superintendent of Lowden County Schools 
pointed to multiple examples where compliance with federal 
regulations diverts hundreds of hours from student support in 
the classroom. These unmanageable mandates constitute a federal 
over-reach into our schools.
    Not only do they direct important funds and resources away 
from the classroom, but they also limit an educator's ability 
to react to the changing education needs of our students. We 
need to allow our educators the flexibility to decide what is 
best for their schools in their communities. It is shortsighted 
to assume that the Federal Government knows more about 
educating students than the teachers and administrators on the 
ground.
    It is time to seriously reexamine the regulatory and 
paperwork burden that the government has imposed on schools. We 
must review each regulation and ask ourselves what purpose does 
this regulation serve, is it actually helping to achieve our 
goal of improving student success. We have a responsibility to 
ensure taxpayer dollars are spent effectively and efficiently. 
And to some extent, regulation and reporting could be helpful 
in achieving that goal.
    But we must also make certain that the nation's classrooms 
aren't overwhelmed by piles of costly and redundant paperwork 
that ultimately harms the future success of our children. We 
must work together to enact meaningful education reforms that 
encourage, rather than stifle, innovation and local 
flexibility. A quality education system is the key, as we all 
know, to building a better, more prosperous future for America.
    Again, I would like to thank our witnesses for joining us 
today. We are interested to hear from you about the paperwork 
burden facing your schools and getting your ideas on what must 
be done here in Washington to streamline the regulatory load 
and encourage success in the nation's schools.
    I would now like to recognize the ranking member, Dale 
Kildee, for his opening remarks.
    [The statement of Mr. Hunter follows:]

          Prepared Statement of Hon. Duncan Hunter, Chairman,
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Chairman Hunter: A quorum being present, the subcommittee will come 
to order.
    Good morning, welcome to the subcommittee's first hearing of the 
112th Congress. I would like to thank our witnesses for being with us 
today; we look forward to your testimony.
    During today's hearing, we will examine the adverse impact 
extensive federal regulations and reporting requirements have on 
teachers, administrators, and students in elementary and secondary 
schools.
    Here's what we know: too many schools and school districts are 
overwhelmed by unnecessary paperwork requirements. Currently, the 
paperwork burden imposed by the Department of Education is larger than 
that of the Department of Defense, the Department of Energy, the 
Department of Housing and Urban Development, the Department of the 
Interior, and the Department of Justice. From 2002 to 2009, the 
Department of Education's paperwork burden increased by an estimated 65 
percent--an astounding number that continues to grow.
    States and local school districts that accept federal funds are 
required to meet federal reporting requirements. These regulations are 
usually costly, intrusive, and redundant, and can create unnecessary 
hurdles for K-12 schools. More often than not, compliance with these 
mandates forces schools to redistribute scarce resources that should be 
dedicated to fostering innovation in our classrooms.
    Recently, the administration proposed a 10.7 percent increase in 
the Department of Education's budget. As the federal role--and federal 
spending--in education has grown, so has the volume of regulations 
associated with education laws. It is important to note that, on 
average, only about 10 percent of a school's budget comes from federal 
funds, which is a disproportionately small amount when compared to the 
total cost of reporting requirements.
    During a recent hearing in this committee, we learned from school 
officials that the regulatory burden created by receiving federal funds 
often outweighs any potential benefits. The testimony of the 
superintendent of Loudoun County Schools pointed to multiple examples 
where compliance with federal regulations diverts hundreds of hours 
from student support in the classroom.
    These unmanageable mandates constitute a federal overreach into our 
schools. Not only do they direct important funds and resources away 
from the classrooms, but they also limit an educator's ability to react 
to the changing education needs of our students. We need to allow our 
educators the flexibility to decide what is best for schools in their 
communities. It is shortsighted to assume the federal government knows 
more about educating students than the teachers and administrators on 
the ground.
    It is time to seriously reexamine the regulatory and paperwork 
burden the government has imposed on schools. We must review each 
regulation and ask ourselves, what purpose does this regulation serve? 
Is it actually helping to achieve our goal of improving student 
success?
    We have a responsibility to ensure taxpayer dollars are spent 
effectively and efficiently, and to some extent, regulation and 
reporting can be helpful in achieving that goal. But we must also make 
certain the nation's classrooms aren't overwhelmed by piles of costly 
and redundant paperwork that ultimately harms the future success of our 
children. We must work together to enact meaningful education reforms 
that encourage, rather than stifle, innovation and local flexibility. A 
quality education system is the key to building a better, more 
prosperous future for America.
    Again, I'd like to thank our witnesses for joining us today. We are 
interested to hear from folks on the ground about the paperwork burden 
facing your schools and getting your ideas on what must be done in 
Washington to streamline the regulatory load and encourage success in 
the nation's schools. I would now like to recognize the Ranking Member, 
Dale Kildee, for his opening remarks.
                                 ______
                                 
    Mr. Kildee. Thank you very much, Mr. Chairman. And I 
personally welcome you to your first hearing as chairman. And 
that is an historical element for any person. I can recall 34 
years ago when I did that.
    Chairman Hunter. And that is how old I am, actually.
    Mr. Kildee. Really?
    Chairman Hunter. So it is good.
    Mr. Kildee. Good time, then, right? [Laughter.]
    That is very good. You know, he is a very strong chairman 
and a very civil chairman, which is very important.
    Your dad gave you a good background. And I appreciate that 
very much. We have worked together. We have gone to the White 
House together. And we like each other, which helps a lot in 
this business down here. So I appreciate your--I would rather 
be chairman myself. But since it can't be my side, I am glad 
you are the chairman, Mr. Chairman.
    You know, we talk about the complex reporting requirements 
we have today. And I can recall when I taught school that all I 
was responsible for was to give an A down to F, A, B, C, D, E, 
F. And when it got very sophisticated, I recall very often I 
would call a student in and say, ``You know, you are just 
barely making it in Latin.'' I taught Latin. This was first 
year Latin. ``But I tell you what, if you promise not to take 
second year Latin, I will pass you.'' And that was the level of 
sophistication we had in those days. We didn't do much more 
than that.
    So we do need information, but we don't need useless 
information or redundant information. And I think that we would 
agree on that very much.
    So, thank you, Mr. Chairman, for calling this Subcommittee 
hearing.
    I am pleased to welcome the witnesses to this hearing on 
education regulations. Thank you all for taking the time out of 
your busy schedules to provide us with the guidance on how we 
can lessen the burden on schools while improving student 
achievement.
    The timing of this hearing is important as this Congress 
continues the bipartisan, bicameral reauthorization of the 
Elementary and Secondary Education Act. When this bill was last 
reauthorized, it was a very bipartisan bill. Mr. Boehner was my 
chairman at that time. And now he has risen much higher in this 
Congress.
    But we enjoyed working with one another. We had our 
differences, but we were able to report a bill to the 
President. So I believe that this reauthorization is long 
overdue and hope that we can send a bill to the President.
    The role of the Federal Government in education has changed 
over the years, but the mission remains the same: to ensure 
equal access to a quality public education for all students 
through the Elementary and Secondary Education Act. It is 
really ESEA. We give it a new name every time we reauthorize. 
And this time it is probably very important we give it a new 
name because the name-No Child Left Behind--probably has not 
looked that good with those that feel that it hasn't carried 
out the title as we had wished it would.
    And IDEA is a very important program here, too. And this is 
where we have had bipartisan support. I see his favorite 
lobbyist over here. But Bill Goodling was one of the great 
advocates of IDEA. And it has always been a good bipartisan 
program, too.
    So I look forward to listening to you, particularly on the 
issue that we are talking about today. And we may call upon you 
again in other issues. And again, I welcome the chairman to his 
new responsibilities.
    Thank you, Mr. Chairman.
    [The statement of Mr. Kildee follows:]

Prepared Statement of Hon. Dale E. Kildee, Ranking Member, Subcommittee 
        on Early Childhood, Elementary, and Secondary Education

    Thank you Mr. Chairman for calling this subcommittee hearing. I am 
pleased to welcome the witnesses to this hearing on education 
regulations. Thank you for taking time out of your busy schedules to 
provide us with guidance on how we can lessen the burden on schools 
while improving student achievement.
    The timing of this hearing is important as this congress continues 
the bipartisan, bicameral reauthorization of the Elementary and 
Secondary Education Act. I have participated in five reauthorizations 
of ESEA during my time in Congress, and strongly believe this 
reauthorization is long overdue.
    The role of the federal government in education has changed over 
the years but the mission remains the same: to ensure equal access to a 
quality public education for all students. Through the Elementary and 
Secondary Education Act (ESEA) and the Individuals With Disabilities 
Act (IDEA) the federal government has advanced this important civil 
rights goal.
    The No Child Left Behind Act called for the disagregation of data 
for low income students, minorities, students with disabilities and 
English language learners and shed light on the inequalities in our 
education system. Prior to the law acheivement among these students was 
masked or hidden by the system. The call for information and 
accountability was the right thing to do.
    Unfortunately, the one-size fits all approach of current law did 
not do enough to close the achievement gap. We need to give states the 
support and flexibility they need, while still ensuring equal 
opportunity for diverse student groups.
    It is important to look at the requirements we are placing on 
states and districts through federal law and regulations. If we can 
streamline program administration and better align programs and data to 
reduce burdens, we should do that as long as we are maintaining our 
core goals.
    However, there needs to be some level of direction from the federal 
government to create coherence in the system, maintain accountability, 
and increase student achievement.
    I fundamentally believe that education is a local function, a state 
responsibility, and finally a federal concern.
    Through this process, I hope we never lose sight of the opportunity 
we have before us. We must prepare to do what is right for all 
students, even if it requires a lot of work and significant change.
    I look forward to the testimony today and I am prepared to work 
with Chairman Hunter and all the members of the committee as we work to 
reauthorize the Elementary and Secondary Education Act to better 
prepare students to compete in a global economy.
    Thank you, Mr. Chairman. I yield back.
                                 ______
                                 
    Chairman Hunter. Thank the gentleman from Michigan. Thanks 
for the kind words. And if I mess this up, it is simply because 
it is my first time.
    Pursuant to committee rule 7-C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. First, Dr. Bob Grimesey.
    Did I say that right--has served as the superintendent of 
Orange County Public Schools, but the one out here. I forget, 
being from California, there is an Orange County on the East 
Coast, too. It is close by--has served as the superintendent of 
Orange County Public Schools since July 1, 2009. Prior to 
coming to Orange County, Dr. Grimesey served as superintendent 
of Allegheny County Public Schools from July 2001 through June 
2009. In May 2007, he was named region six superintendent of 
the year by the Virginia Association of School Superintendents. 
Prior to his tenure in Allegheny County, Dr. Grimesey served 
from 1987 to 2001 in Rockingham County Public Schools.
    Mr. Grimesey, thank you for being here.
    Next is Mr. James Willcox, who was named Aspire's second 
chief executive officer in 2009. And prior to joining Aspire, 
he was the founding chief operating officer for Education for 
Change, a non-profit charter management organization founded to 
restart under-performing district schools within the Oakland 
unified School District. Mr. Willcox has also served as a 
principal at New Schools Venture Fund, a philanthropic 
organization focused on improving public schools nationwide. 
Mr. Willcox has also served as a U.S. Army officer for over 7 
years.
    Thank you for your service, Mr. Willcox. My little brother 
is in the Army. In fact, he just got back from Iraq in 
September. So thank you for what you do.
    Next Mr. Chuck Grable, who currently serves as the 
assistant superintendent for instruction for the Huntington 
County Community School Corporation in Huntington, Indiana. In 
this capacity, he oversees K-12 instruction, curriculum 
development assessment, professional development and student 
teacher placements. Prior to this position, Mr. Grable served 
as the principal at a K-8 school in Huntington County and as an 
elementary school teacher.
    Thank you for being here.
    And last, Ms. Jennifer Marshall, who serves as the director 
of domestic policy studies at the Heritage Foundation, where 
she oversees research and education, marriage, family, religion 
and civil society. She also directs the think tank's Richard 
and Helen Devow's Center for Religion and Civil Society.
    So prior to recognizing each one of you for your testimony, 
let me just briefly explain the lighting system, if you haven't 
testified here prior. You will have 5 minutes, and a little, 
yellow light will turn on after four of those. It will say you 
have 1 minute left. And when it turns red, try to wrap up, if 
you could, please.
    Thank you all for being here again. And I would like to now 
recognize Dr. Grimesey to start off. You are recognized.

   STATEMENT OF ROBERT GRIMESEY, JR., ED.D., SUPERINTENDENT, 
                  ORANGE COUNTY PUBLIC SCHOOLS

    Mr. Grimesey. Chairman Hunter and Ranking Member Kildee, 
members of the Subcommittee, including Mr. Scott from my home 
state, thank you for inviting me to testify today regarding the 
impact of federal regulations and reporting from the 
perspective of an administrator in a small, rural school 
division. My name is Robert Grimesey, and I am superintendent 
of Orange County Public Schools in Virginia. I also serve as 
co-chairman of the Virginia Association of School 
Superintendents' legislative committee.
    Orange County is a small, rural school district of 5,050 
students located just beyond the Southern boundary of the 
greater Washington, D.C. area suburbs. I speak today from my 27 
years as a public educator and 10 of those as a school 
superintendent.
    Orange County Public Schools takes seriously its 
responsibility to comply with all regulations and reporting 
requirements of our local school board, our state education 
agency and all federal agencies. Unlike many large school 
divisions, however, OCPS employs no individual data analysts or 
program analysts. And we have no research office.
    Our entire central office administrative staff includes a 
total of 11 secretaries and 14 administrators, including the 
superintendent. These 25 individuals fulfill all division-level 
administrative duties, including all federal and state 
compliance and reporting requirements. Yet, our division-level 
administrative capacity is envied by most, if not all, of the 
70 percent of America's school districts with enrollment at 
2,500 or less.
    At first glance, there may seem to be little that is new 
about state and local complaints related to federal paper work 
and its associated administrative burdens. Make no mistake, the 
vast majority of rural school superintendents and school board 
members understand and respect the need for reasonable 
accountability and transparency as we receive and invest 
federal dollars.
    However we believe that there is much that is not 
reasonable about the ever-expanding nature of many federal 
obligations. We also see a need for streamlined collaboration 
between USDOE and the SEAs in the articulation of data 
reporting requirements.
    Ultimately, many well-intended federal regulations are 
creating a culture of compliance that leads to a local fear of 
failure. Such a context makes federal compliance an end in 
itself. For localities at the end of this regulatory food 
chain, it becomes very difficult to maintain our focus on the 
achievement and welfare of our students.
    Allow me to offer an example. On January 28, 2011, the 
Virginia Department of Education advised school superintendents 
that it was required by federal regulations associated with the 
American Recovery and Reinvestment Act to collect and report 
the following by September 30 of this year: course-level data 
by student and teacher for all students; descriptions of 
teacher and principal evaluation systems; teacher and principal 
evaluation outcomes; and information on charter schools that 
fail.
    Much of this information is currently not maintained 
electronically. Existing electronic data sets are not 
interconnected. Misalignment between the September federal 
deadline and the annual calendar of other state reporting tasks 
is going to result in duplication of effort on at least two 
data-reporting procedures.
    A new master schedule course collection process is being 
developed to address the many non-existent and disconnected 
data sets. The process is intended to tie each student's class 
grades and standardized test scores to each of the student's 
teachers, including standard classroom teachers as well as 
special education or English-as-a-Second-Language teachers. 
Having established a connection between each student and each 
of his teachers, the process then ties the student's 
performance to the evaluation outcomes and licensure statuses 
of each of his or her teachers.
    Orange County, like most rural school divisions, lacks the 
manpower and expertise to project the time and monetary costs 
associated with the development and maintenance of the new 
master schedule course collection process. However it does not 
require a lot of imagination to envision the work that will be 
needed to collect dozens of outcomes from each of the paper 
evaluations of our 350 teachers and principals and then to 
integrate that information with the existing electronic 
database for teacher licensure and then to integrate that data 
base with a separate data base for student standardized test 
performance and then to tie that back to the grades awarded to 
an individual student by each teacher who serves that 
particular student.
    Let me be clear. Orange County respects the need for valid 
and reliable evaluations for teachers, principals and its 
superintendent. We also embrace the appropriate inclusion of 
student performance data in the evaluation of instructional 
staff. But we have developed and implemented an effective 
evaluation process without federal assistance. New layers of 
reporting requirements offer little benefit to what we already 
have accomplished on our own.
    The volumes of data to be generated as a result of the new 
ARRA-related requirements may make for interesting reports. But 
what will be the ultimate price tag? And will that new cost 
really result in teachers and principals feeling more 
accountable for student learning than they do already? And 
ultimately, will all of this new information actually improve 
the welfare and academic achievement of students? In other 
words, is all of this really worthwhile?
    From the perspective of under-staffed rural school 
divisions, the answer may be irrelevant. We simply may not have 
the personnel needed to deliver on the demands of this process. 
The elaborate reporting requirements associated with ARRA 
represent a classic example of overly-burdensome federal 
regulations.
    They provide little benefit to school divisions that 
already have developed evaluation systems that can ensure 
accountability. They promulgate a culture of compliance that 
distracts from local focus away from student learning. And they 
create a massive challenge for effective articulation between 
USDOE and the SEAs.
    Thank you, Mr. Chairman.
    [The statement of Mr. Grimesey follows:]

         Prepared Statement of Robert P. Grimesey, Jr., Ed.D.,
              Superintendent, Orange County Public Schools

    Chairman Hunter, Ranking Member Kildee, and Members of the Sub-
Committee: Thank you for inviting me to testify today regarding the 
impact of federal regulations and reporting from the perspective of an 
administrator in a small rural school division.
    My name is Robert Grimesey and I am the Superintendent of Orange 
County Public Schools in Virginia. I also serve as Co-Chairman of the 
Virginia Association of School Superintendents' Legislative Committee. 
Orange County is a small rural school district of 5,050 students 
located just beyond the southern boundary of the greater Washington, 
D.C.-area suburbs. I speak to you today from my 27 years as a public 
educator, which includes 10 years as a school superintendent.
    Orange County Public Schools (OCPS) takes seriously its 
responsibility to comply with all regulations and reporting 
requirements of our local school board, our state education agency 
(SEA) and federal agencies. Unlike many large school divisions, 
however, OCPS employs no individual data analysts or program analysts. 
We have no research office. Our entire central office administrative 
staff includes a total of 11 secretaries and 14 administrators, 
including the superintendent. These 25 individuals fulfill all 
division-level administrative duties, including all federal and state 
compliance and reporting requirements. And yet, our division-level 
administrative capacity is envied by most, if not all, of the 70% of 
America's school districts with enrollment at 2,500 or less.
    At first glance, there may seem to be little that is new about 
state and local complaints related to federal paper work and its 
associated administrative burdens. Make no mistake. The vast majority 
of rural school superintendents and school board members understand and 
respect the need for reasonable accountability and transparency as we 
receive and invest federal dollars. However we believe that there is 
much that is not reasonable about the ever-expanding nature of many 
federal obligations. We also see a need for streamlined collaboration 
between USDOE and the SEAs in the articulation of data reporting 
requirements. Ultimately, many well-intended federal regulations are 
creating a ``culture of compliance'' that leads to a local fear of 
failure. Such a context makes federal compliance an end in itself. For 
localities at the end of this regulatory food chain, it becomes very 
difficult to maintain our focus on the achievement and welfare of our 
children.
    Allow me to offer an example. On January 28, 2011, the Virginia 
Department of Education advised school superintendents that it was 
required by federal regulations associated with the American Recovery 
and Reinvestment Act (ARRA) to collect and report the following by 
September 30 of this year:
    <bullet> Course-level data by student and teacher for all students;
    <bullet> Descriptions of teacher and principal evaluation systems;
    <bullet> Teacher and principal evaluation outcomes; and
    <bullet> Information on charter schools that close.
    Much of this information currently is not maintained 
electronically. Existing electronic data sets are not interconnected. 
Misalignment between the September federal deadline and the annual 
calendar of other state reporting tasks is going to result in 
duplication of effort on at least two data-reporting procedures
    A new ``master schedule course collection'' process is being 
developed to address the many non-existent and disconnected data sets. 
The process is intended to tie each student's class grades and 
standardized test scores to each of the student's teachers, including 
standard classroom teachers as well as special education or English-as-
a-Second-Language teachers. Having established a connection between 
each student and each of his or her teachers, the process then ties the 
student's performance to the evaluation outcomes and licensure statuses 
of each of his or her teachers.
    Orange County, like most rural school divisions, lacks the manpower 
and expertise to project the time and monetary costs associated with 
the development and maintenance of the new ``master schedule course 
collection'' process. However it does not require a lot of imagination 
to envision the work that will be needed to collect dozens of outcomes 
from each of the paper evaluations of our 350 teachers and principals; 
and then to integrate that information with the existing electronic 
data base for teacher licensure; and then to integrate that data base 
with a separate data base for student standardized test performance; 
and then to tie that back to the grades awarded to an individual 
student by each teacher who serves that student.
    Let me be clear. Orange County respects the need for valid and 
reliable evaluations for teachers, principals and its superintendent. 
We also embrace the appropriate inclusion of student performance data 
in the evaluation of instructional staff. But we have developed and 
implemented an effective evaluation process without federal assistance. 
New layers of reporting requirements offer little benefit to what we 
already have accomplished on our own.
    The volumes of data to be generated as a result of the new ARRA-
related requirements may make for interesting reports. But what will be 
the ultimate price tag? And will that new cost really result in 
teachers and principals feeling more accountable for student learning 
than they do already? And ultimately, will all of this new information 
actually improve the welfare and academic achievement of students? In 
other words, is all of this really worthwhile? From the perspective of 
under-staffed rural school divisions, the answer may be irrelevant. We 
simply may not have the personnel needed to deliver on the demands of 
this process.
    The elaborate reporting requirements associated with ARRA represent 
a classic example of overly burdensome federal regulations. They 
provide little benefit to school divisions that already have developed 
evaluation systems that can ensure accountability. They promulgate a 
culture of compliance that distracts local focus away from student 
learning. And they create a massive challenge for effective 
articulation between USDOE and the SEAs.
                                 ______
                                 
    Chairman Hunter. Thank you, Dr. Grimesey, for your 
testimony.
    I would now like to recognize Mr. Willcox for 5 minutes.

                STATEMENT OF JAMES WILLCOX, CEO,
                     ASPIRE PUBLIC SCHOOLS

    Mr. Willcox. Good morning, Chairman Hunter, Representative 
Kildee and members of the Committee. Thank you for inviting me 
here today. My names is James Willcox. I am the chief executive 
officer of Aspire Public Schools.
    We are the largest public charter management organization 
in California. And today we operate 30 public charter schools 
in low-income communities across the state serving nearly 
10,000 students. I am here today to affirm two things. The 
first is to agree with my colleague. It is of the utmost 
importance that we as operators of public schools serve as 
responsible custodians of the public's funds. Secondly, I am 
here to testify that at times, oversight and compliance can 
make it more difficult for federal funds to serve its intended 
purpose and to educate our students.
    As a public charter school organization, flexibility is 
critical to our success. Flexibility allows us to devote more 
resources to the classroom because we are unburdened by many of 
the regulations of state and federal categorical programs.
    At Aspire, we are very clear on what happens in our 
schools. We call it college for certain. We are focused on 
preparing our students, not only to graduate from high school, 
but to also be prepared to attend and succeed in college and in 
life.
    Across our 30 schools, we are doing exactly that. Last 
year, 100 percent of our graduates went on to be accepted at 4-
year colleges and universities. In 5 years, we will graduate at 
least 500 college-bound students every year.
    Preparing our students for college success is critically 
important and even more so when you consider that most of our 
students are the first in their family to attend college. On 
the 2010 academic performance index, which measures all the 
academic performance of California schools, Aspire schools 
earned an overall score of 824 out of a possible 1,000 points, 
making us the highest performing public school system serving 
low-income students in California.
    An important part of our success today is the support of 
federal funding. At Aspire, federal funding accounts for 12 
percent of our total public revenue, approximately $10 million 
of restricted funding each year. An already difficult fiscal 
environment in California is made even more challenging because 
many federal funding streams come with a cost, which includes 
staff time and paperwork.
    At any time, this cost matters because as many resources as 
possible should flow to our classrooms, where the frontline 
work of educating our children is happening every day. Today, 
it matters even more. I want to share two examples where 
oversight of federal funds moved beyond what we believe is 
necessary to provide proper stewardship of the taxpayers' money 
and enters into a realm where it becomes overly-burdensome for 
teachers, for administrators and for our schools.
    First is Title 1. We serve more than 70 percent low-income 
students and rely on Title 1 for 3 percent of our total 
operational funding. As you know, this program provides 
financial assistance for schools with high numbers of low-
income children.
    To qualify for or renew Title 1 funding requires copious 
amounts of paperwork. For each educator funded with Title 1 
monies, we must fill out personnel activity sheets each month. 
We must then outline their salary for that month and describe 
how much of that salary comes from Title 1 funding. Each staff 
member and his or her principal needs to sign these forms 
monthly.
    Across our 30 schools, teachers, principals and 
administrative staff spend approximately 3 hours per school per 
month filling out compliance paperwork. In addition to these 
monthly reports, we also submit two 30-page reports each year 
outlining our adherence to Title 1 under No Child Left Behind.
    Beyond these reports, we also go through a rigorous 
auditing process. These audits require us to use what is known 
as level of effort calculations showing that we are using Title 
1 funds to supplement our regular education program, not simply 
as unrestricted funds to be used at the school's discretion in 
the service of students. In order to do this, we pull hundreds 
of receipts and invoices from our files each year. This process 
involves five full-time staff members, as you can imagine, a 
ton of paperwork.
    The second example is the national school lunch program. 
The national school lunch program is critical to Aspire 
families. Currently, more than 6,800 of our students receive 
free or reduced-price meals from this invaluable program. In 
order to receive these meals each year, parents must fill out 
an application, which is submitted to our program director, who 
manually enters this data into a computer system to determine 
whether or not the family qualifies for the program and then 
communicates these results back to the school and back to the 
families.
    This is a very time-consuming process for both staff and 
administrators during the first few weeks of school, which is 
one of the busiest and most critical times of the year. 
Monitoring and implementing this program requires daily 
tracking of food, students and the program itself. There is 
also a large amount of paperwork involved in observations, 
health inspections and food distribution.
    When federal funding streams become available, we at Aspire 
must determine if the compliance costs will outweigh the 
benefit of the funding. In the past, we have chosen not to 
apply for some federal funds because the compliance 
requirements of some of these funds do not justify the amount 
of resources it would take to apply for and manage them.
    In order to continue providing a high-quality education to 
our students, we need your support. Only through streamlining 
federal grant and reporting processes will we be able to access 
the funding that will ensure that we can do everything we can 
for our students.
    I hope we can shift our collective mindsets to focus on 
maximizing dollars in classrooms and the student outcomes that 
we seek. We surely appreciate the intent to ensure that federal 
funding is used to achieve the purposes for which it was 
intended. I hope the new process can be implemented is less 
concerned with the detailed accountability for inputs and 
focused more on the clear outcome or objective of each program 
and one grounded in our collective responsibility to 
effectively educate all of our students.
    On behalf of the nearly 10,000 students we serve in 
California, I thank you for inviting us here today. The 
opportunity to speak with you is an inspiration to our families 
and the communities that we serve. They know you are eager to 
listen and to learn about the challenges we face. And it is 
important you do as much as you can to support our students' 
journey to college.
    I am constantly reminded of our incredible work and the 
heroism of our teachers and our staff every day when I visit 
our schools. I would like to take this chance to extend an open 
invitation to all of you whenever in California to come visit 
an Aspire school so you can see what happens every day when 
federal dollars go where they are most needed, which is to our 
students.
    [The statement of Mr. Willcox follows:]

     Prepared Statement of James Willcox, Chief Executive Officer,
                         Aspire Public Schools

    Good morning Chairman Hunter, Representative Kildee and members of 
the Committee. Thank you for having me here today.
    My name is James Willcox and I am the Chief Executive Officer of 
Aspire Public Schools. We are the largest public charter school 
management organization in California. Today we operate 30 public 
charter schools in low-income communities across the state and serve 
nearly 10,000 students.
    I'm here today to do two things. First, I want to affirm the fact 
that it is of the upmost importance that we, as an operator of public 
schools, serve as responsible custodians of public funds. Proper and 
adequate oversight over all public dollars is integral to the success 
of our educational system. We must do this in order to maintain the 
public's confidence that our tax dollars are used wisely and 
responsibly. Secondly, I am also here to testify to the fact that, at 
times, oversight and compliance can make it more difficult for federal 
funds to flow where they are most needed and to serve the purpose for 
which they are intended--to support our students.
    As a charter school organization, flexibility is a key ingredient 
to our success. It is this flexibility that allows us to devote more 
resources to the classroom because we are unburdened by many of the 
regulations of state and federal categorical programs.
    This is unfortunately not the case for most of our colleagues in 
traditional public schools. We believe that traditional public schools 
would and should benefit from the same type of flexibility that we 
enjoy as charter schools. For us, one of the most powerful 
opportunities that charter schools have created is the opportunity to 
demonstrate what might be possible with a shift from a compliance-
driven system to one that is focused on outcomes with student 
achievement as its first priority. Of course, it's our view that a more 
flexible, outcomes-focused approach should also demand higher levels of 
accountability. We believe that this is a powerful marriage of 
concepts--concepts that are at the heart of the promise of public 
charter schools.
    But even with the higher levels of flexibility that we enjoy, our 
schools still cannot access federal funding that we are qualified to 
receive. With limited resources and staff time, we routinely make 
decisions to forgo federal funding that is available to our students. 
Why? Simply put, our teachers, administrators and staff members do not 
have the time or resources necessary to apply for and manage the 
compliance and reporting for many federal grants programs--programs 
that are desperately needed by students that are served by charter 
management organizations just like ours.
    In this time of budget constraints, all of us know that every 
dollar counts. As a non-traditional system of free, open-enrollment 
public schools, we depend primarily on federal and state funding to 
fulfill our commitment to our students and families--a mission to 
provide small, personalized high-quality public schools to students and 
families who want and need more high-quality public school choices. At 
Aspire, we are also very clear on what happens in our schools we call 
it ``College for Certain.'' We are focused on preparing our students 
not only to graduate from high school, but to graduate prepared to 
attend and succeed in college and in life.
    Across our 30 schools, we are succeeding. Last year, one hundred 
percent of Aspire's graduating seniors were accepted to four-year 
colleges or universities. In five years, we will be graduating at least 
500 college bound students each and every year. Preparing our students 
for college success is critically important, even more so when you 
consider that most of our students are the first in their family to 
attend college. Only half of low-income students who graduate from high 
school move on to institutions of higher learning. Sadly, many don't 
graduate at all. Our teachers, parents and administrators are working 
tirelessly to reverse this trend and the results they are achieving are 
truly remarkable.
    On the 2010 Academic Performance Index, which measures the academic 
performance of California schools, Aspire schools earned an overall 
score of 824 out of a possible 1,000, making us the highest-performing 
public school system serving low-income students in the state of 
California. In addition, we were recently recognized as one of the 
world's 20 most improved school systems by the management consulting 
firm McKinsey & Company. These results and recognition are a testament 
to our team and the determination of our students and families to 
change the odds that are too often stacked against them. As an 
organization, we believe this is more than a reason to be hopeful--it 
is a reason to demand more of ourselves to deliver on the promise of 
public education in every community across the country. It is a reason 
to focus more on outcomes for all of our students and a reasonable, 
less burdensome set of compliance requirements for all of our schools.
    In California, more and more families are demanding high-quality 
public schools for their children. Even in these incredibly tough 
economic times, Aspire is trying to help. We intend to continue 
bringing our high-performing educational model to even more low-income 
families across California. Our ability, however, to fulfill our 
intentions to continue opening new schools and serving more students is 
in large part driven by the flexibility we have to direct the majority 
of our funding to where it matters most--our students. Today, federal 
funding accounts for 12 percent of our total public revenue and amounts 
to approximately 10 million dollars of restricted funding.
    At any given time, having the flexibility to allocate your budget 
to meet the most pressing needs of your students is powerful. In this 
difficult financial environment, flexibility in school budgets is 
critical to protect our students from the tough times around them. 
Traditional public school districts across California and the country 
have far less flexibility when it comes to the very tough tradeoffs 
schools are being forced to make.
    That said, an already difficult fiscal climate in California is 
made even more difficult for our organization because many of our 
funding streams come with a cost, and that is time and paperwork. At 
any time, this matters because resources should flow to classrooms 
where the front line work of educating our children is happening every 
day. In a time like this, it matters even more.
    I would like to give you two examples where oversight of federal 
funds moves beyond what we believe is necessary to ensure proper 
stewardship of taxpayer money and enters into the realm where it 
becomes overly burdensome.
Title I Funding
    As a public school system that serves more than 70 percent low-
income students, we rely on Title I for three percent of our total 
operational funding. As you know, this program provides financial 
assistance to schools with high numbers of low-income children to 
ensure that our schools have the resources they need to ensure that all 
of our students are achieving academically.
    To qualify for or renew Title I funding requires copious amount of 
paperwork. For each employee funded with Title I monies, we must fill 
out a personnel activity sheet each month. We must then outline their 
salary for that month and describe how much of that salary is from 
Title I funding. Each staff member and his/her principal have to sign 
these forms on a monthly basis. Across our 30 schools, teachers, 
principals and administrative staff spend approximately three hours per 
month filling out compliance paperwork. These are hours taken from 
supporting our teachers, assisting our families or preparing our 
students for success in college.
    In addition to these monthly reports, we must submit two 30-page 
reports each year outlining our adherence to Title I under No Child 
Left Behind. We work to compile these lengthy and cumbersome reports 
for each school.
    Beyond these monthly and periodic reports, we also go through a 
rigorous annual auditing process. For our audits, we are required to 
use what is known as ``level of effort'' calculations, showing that we 
are using Title I funds to supplement our regular education program, 
not simply as unrestricted funds for our operating expenses. In order 
to do this, we pull hundreds of receipts and invoices from our files. 
This process involves five staff members and, as you can imagine, a ton 
of paperwork.
    We understand and appreciate the intent to ensure that funding for 
low-income students is used appropriately, and I hope we can work 
together to ensure that oversight and compliance does not excessively 
dilute our effort to focus on what matters most the achievement of the 
students we are trying to serve. In short, I hope a new process can be 
implemented that is less concerned with detailed accountability for 
inputs and focused more and more on our collective responsibility to 
deliver high-performing students for some of our most underserved 
communities.
National School Nutrition Funding
    The National School Nutrition program is critical to Aspire 
families. Currently, more than 6,800 of our students receive free or 
reduced priced lunch from this invaluable resource.
    In order to receive free or reduced priced breakfast and lunch, 
each year parents must fill out an application, which is then submitted 
to the program director. Our program director manually enters this data 
in the computer system to determine whether or not the family qualifies 
for the program and then communicates the results back to the 
individual schools to relay to our families. This is a very time 
consuming process for both staff and administrators during the first 
few weeks of school, which is one of the busiest times of the school 
year. Monitoring and implementing this program requires daily tracking 
of food, students and intake. There is also a large amount of paperwork 
involved in observations, health inspections and food distribution.
    The National School Nutrition Program is one example of a program 
that is a vital service for our families. It is, however, also a 
program that is managed by a dedicated staff member and generates more 
than one and a half hours of daily paperwork at each school site. While 
ensuring oversight of taxpayer monies is important, it takes time and 
resources from our classrooms. The costs we incur to staff the various 
elements of the compliance program come from our schools' operational 
budgets, lessening our ability to support our students in the 
classroom. By reducing paperwork in small amounts throughout the food 
service process, our teachers and staff will be able to redirect that 
time to their students. One specific example might be multi-year 
eligibility for our students, or simply establishing eligibility when a 
child enters school.
    Title I and the National School Nutrition Program are two federal 
programs that support our students, teachers, administrators and school 
sites in accomplishing our goal of ``College for Certain.'' When 
funding streams come available, Aspire is forced to determine if the 
compliance costs outweigh the benefit of the money. In the past, we 
have chosen to refrain from receiving federal funds because the 
compliance requirements of many federal grants do not justify the 
amount of resources that it would take to apply for and manage these 
funds.
Conclusion
    In order for our schools to continue to grow and provide a high-
quality education to students who need it the most, we need your 
support. Only through streamlining federal grant and reporting 
processes will Aspire be able to access funding that will ensure that 
California's low-income population can send their child to the public 
school of their choice. It is my hope that we can shift our collective 
mindset to focus on dollars in classrooms and outcomes achieved.
    I believe that we should assume a posture that recognizes that 
compliance and regulations takes resources away from our students. I 
also believe that the burden of proof should be on rule-making, not on 
schools, to prove that the costs of oversight don't overly burden our 
schools and most importantly, overly dilute the purpose for which the 
funds were intended. We should focus additionally on lightening the 
burden of compliance around inputs (what we do) and focus more on what 
we want schools to achieve with federal funding. Simultaneously, we 
should implement rewards and recognition for schools and organizations 
that achieve positive student outcomes potentially lightening the load 
when schools have proven that they are able to achieve the intended 
outcome or objective of federal programs. On the flip side, I also 
believe that we should consider greater accountability for those 
schools that fail to serve our students well.
    On behalf of nearly 10,000 students we serve in California, I would 
like to end my comments by thanking you for having me here today. The 
opportunity to speak with you about the challenges that we face, 
knowing that you are listening, knowing that you are eager to help and 
always asking the question ``How can we better support our students and 
our schools?'' is inspiring for our families and the communities we 
serve. I am constantly reminded of our incredible work and the heroism 
of our teachers and team when I visit our schools and I would like to 
extend an open invitation to visit an Aspire school to find out what 
happens when your federal dollars go where they are needed the most our 
students. Thank you very much. I would be happy to answer your 
questions.
                                 ______
                                 
    Chairman Hunter. Thank you, Mr. Willcox, for your 
testimony.
    Mr. Grable?

    STATEMENT OF CHUCK GRABLE, ASSISTANT SUPERINTENDENT FOR 
        INSTRUCTION, HUNTINGTON COUNTY COMMUNITY SCHOOL

    Mr. Grable. Chairman Hunter, Ranking Member Kildee and 
members of the committee, thank you for the opportunity to 
testify before you today. The Huntington County Community 
School Corporation is a rural, county-wide Pre-K-12 school 
district with about 6,000 students and 11 schools. We are an 
extremely socio-economically diverse district.
    Our individual schools free and reduced lunch percentages 
range from a low of 27 percent to a high of 80 percent. Our 
mission is to create world-class learning results for all 
students. We have aligned and adjusted the federal 
accountability requirements, developed a strategic plan focused 
on goals, data and results, held administrators and teachers 
more accountable for implementation and have made our data 
transparent for parents.
    Due to these efforts, we have made AYP two of the past 3 
years. We have also successfully pulled two elementary schools 
out of corrective action and are about to pull the third and 
final elementary out of corrective action.
    Some would argue that the federal accountability and 
reporting requirements are overly-burdensome. I would argue 
that certain federal data requirements are important to driving 
change and improving student achievement. However, certain 
requirements could be streamlined to remove redundancies. The 
current federal requirements are sufficient, and we must use 
this data in more efficient and effective ways to guide 
improvement in daily instructional decisions.
    Data collection and analysis supports best practice, 
creates efficiencies and ensure students' civil rights are met. 
Data is also used to monitor and evaluate results and to 
provide transparent information to parents and community.
    We are a firm believer in what gets measured gets done and 
have successfully organized our school improvement efforts 
around this philosophy. As Congress looks to improve federal 
education law, any federal requirements for reporting should be 
carefully analyzed to reflect what will benefit students. The 
focus should be on student outcomes instead of compliance.
    Because federal law has demanded we look more closely at 
which students are achieving and which are struggling, we have 
been vigilant in data collection, analysis and transparency in 
the following ways: We created a strategic plan that includes 
key indicators, which we monitor, and action steps that guide 
our improvement. We use an elementary literacy walls to monitor 
the performance of every student.
    We conduct ongoing data meetings among and between all 
areas of school leadership, parents and the public. We teach 
students to track their own performance. We invested in a data 
warehouse and a response to intervention documentation program 
to create efficiencies in pulling data for district, state and 
federal reporting and to improve daily instruction.
    We give parents real-time access to all student data and 
relevant information. This allows us to truly partner with 
parents to provide the best possible education to all students, 
including those with an IEP or English language learners.
    In all of our work, student privacy is fully protected. And 
only parents and educational personnel have access to this 
information. We routinely go beyond the federal collection 
requirements to maximize improvement and identify groups or 
individual students that need more support or further academic 
challenge. With our tools, principals and teachers can filter 
and disaggregate data to view overall trends or identify 
instructional needs such as which students are struggling to 
master standard sub-skills or concepts.
    This allows us to identify the students most in need and 
target interventions for those students and provide 
professional development for our teachers. Our success in using 
data to drive instruction and target support at all grade 
levels speaks for itself. I have several recommendations I 
would like to offer. And they are:
    One, carefully examine requirements and any new regulations 
through the lens of what drives reform and directly benefits 
students.
    Two, work to streamline the reporting process and remove 
redundancies. We are often required to report the same 
information several different times to several entities, for 
example, IDEA, Title 1 and our own state divisions.
    Three, provide support for states and districts to use data 
warehouses that reduce collection and reporting burdens while 
using data to improve teaching and student performance.
    Thank you for the opportunity to testify today. And I would 
be pleased to take any questions.
    [The statement of Mr. Grable follows:]

  Prepared Statement of Charles Grable, Assistant Superintendent for 
  Instruction, Huntington County Community School Corporation (HCCSC)

    Chairman Hunter, Ranking Member Kildee, and members of the 
Committee, thank you for the opportunity to testify before you this 
morning on the role of the federal government in education and its 
impact on states, districts, and schools; especially when examining the 
need for data collection and reporting.
    The Huntington County Community School Corporation (HCCSC) is a 
rural, county-wide preK-12 school district consisting of 5,986 students 
in 11 schools. We are an extremely socio-economically diverse district. 
Our individual schools' free/reduced lunch percentage ranges from a low 
of 27% to a high of 80%. The mission of HCCSC is to create world-class 
learning results by focusing on literacy, academic standards, a safe 
learning environment, stakeholder satisfaction, and career and life 
readiness. Our school district has been in corrective action for the 
past seven years. Through a process of aligning and adjusting to 
federal accountability requirements; developing a strategic plan 
focused on SMART goals, data, and results; holding administrators and 
teachers more accountable for implementation of key strategies; and 
partnering with and making our data transparent to the community and 
parents; HCCSC has made Adequate Yearly Progress two out of the past 
three years. HCCSC has also successfully pulled two elementary schools 
out of corrective action by targeting instruction on the special 
education subgroup, and is about to pull the third and final elementary 
out of corrective action for improving results in the special education 
and free/reduced lunch subgroups.
    Sadly, there are many school districts, educators, and stakeholders 
that would argue that federal accountability and reporting 
requirements, including the use of data, are overly burdensome. While I 
would argue that many of the reporting processes should be streamlined 
to remove redundancies to be more efficient, the Federal requirements 
in this area are extremely important to driving student achievement.
    States, districts, and schools need to use existing data more 
efficiently and effectively to drive the school improvement process and 
to inform daily instruction. HCCSC is a firm believer in ``what gets 
measured gets done'' (Peters, 1987), and has successfully organized its 
school improvement efforts around this philosophy. As Congress looks to 
improve Federal education law, any federal requirements for reporting 
or data collection, should be carefully analyzed to reflect first and 
foremost what will benefit the students. The focus should be on outcome 
or performance data instead of overly burdensome compliance 
regulations.
    Author Jim Collins states that, ``Organizations only improve where 
the truth is told and the brutal facts confronted.'' Federal education 
policy has forced this concept to the forefront, and refocused school 
districts on valuable student data and emphasized results. This focus 
ensures that all students' civil rights are met. The data collection 
and analysis helps educators retool and reallocate valuable, and often 
diminishing, resources and services to those most in need; thus 
ensuring that all students are provided a high quality, free, and 
appropriate education.
    Educational reformist, Mike Schmoker (1999), states, ``Data are to 
goals what signposts are to travelers; data are not end points, but are 
essential to reaching them--the signposts on the road to school 
improvement. Thus, data and feedback are interchangeable and should be 
an essential feature of how schools do business.'' I cannot stress 
enough the importance of using data to drive improvement efforts, to 
support best practices, to create efficiencies, to monitor and evaluate 
results, and to provide information to parents and community 
stakeholders. Because federal law has demanded that we look more 
closely at which students are achieving and which are struggling, HCCSC 
has been vigilant in its data collection, analysis, and transparency in 
the following ways:
    <bullet> Created a strategic plan with the School Board that 
includes key indicators we want to monitor and action steps to help us 
move forward. See attached HCCSC Strategic Plan.
    <bullet> Use Elementary Literacy Data Walls to monitor the 
performance of every student during the fall, winter, and spring 
assessments. See photo on page 6.
    <bullet> Conduct ongoing data meetings among and between all areas 
of school leadership and the public.
    <bullet> Teach students to track their own performance (e.g. 
attendance, reading levels, NWEA scores, etc.) in Student Data Folders.
    <bullet> Invested in a data warehouse and Response to Intervention 
(RTI) documentation program with Pearson Inform to create efficiencies, 
improve daily instruction, and minimize the burden for school, 
district, state, and federal data reporting. It has allowed HCCSC to 
work smarter rather than harder.
    <bullet> Give parents ``real time'' access to their child's grades, 
assessment data, RTI academic or behavioral goals, and RTI 
interventions. This access to their child's grades, scores, and goals 
allows us to truly partner with parents to provide the best possible 
education to all students, including those with an IEP or English 
Language Learners.
    In all of our work, the privacy of the student is fully protected 
and only parents and educational personnel can access this information. 
Just as we believe in the importance of data informing and driving 
instruction, we also ensure it remains secure and individual student 
privacy is not compromised.
    State and federal data collection requirements are not the final 
destination in the improvement process. We routinely go above and 
beyond the federal collection requirements in order to maximize 
improvement efforts and identify those groups or individual students 
that need more support or further academic challenge. With the use of 
tools like the data warehouse, we are able to filter and disaggregate 
data to view overall trends or understand granular instructional 
information such as which state standard sub-skills or concepts an IDEA 
eligible or Title I student is struggling to master. Also, through the 
collection and analysis of our ongoing formative assessment data, 
administrators and teachers can identify those students most in need of 
support and successfully target interventions for students and 
professional development needs for teachers. Our data show the success 
we're having in all grades.
    Therefore, as stated earlier, the current federal reporting 
requirements are sufficient and we must use the current data in more 
efficient and effective ways to guide school improvement and daily 
instructional decisions. I do have several recommendations I'd like to 
offer. They are:
    1. Carefully examine existing requirements and any new regulations 
through the lens of what best benefits students and drives reform 
within the school.
    2. Work to streamline and fine tune the reporting process while 
removing redundancies. We are often required to report the same 
information several different times to several entities (i.e. IDEA, 
Title I, and our own state divisions). The data should be able to be 
managed more efficiently with technology through the use of Student 
Testing Numbers (STN) collected and managed by the state. Therefore, 
through the STN, the information should be able to be transferred 
through the state DOE to the federal educational agencies more 
efficiently without requiring local districts to duplicate its efforts.
    3. Provide support for states and districts to utilize data 
warehouses that reduce collection and reporting burdens.
    Thank you for the opportunity to testify today. I have submitted 
our academic outcome data for the record. I would be pleased to take 
any questions.
    Additional Information:
    1. HCCSC's performance on ISTEP+ (Indiana's state accountability 
test) in English/Language Arts and math. As you can see in the charts, 
HCCSC has improved its performance in the past several years by 
focusing on our data and implementing best practice instructional 
strategies. This data includes students with disabilities and English 
Language Learners.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    2. HCCSC has one large comprehensive high school, Huntington North 
High School (HNHS). HNHS has dramatically increased its graduation rate 
over the past few years by using data to identify and focus on the 
students most at risk for dropping out of high school. By focusing on 
this data and implementing best practice strategies in classrooms, a 
credit recovery program, and an alternative high school setting, HNHS 
has achieved positive results. The state of Indiana has not yet 
released its graduation rate for the 2009-2010 school-year. This data 
includes students with disabilities and English Language Learners.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    3. By using the data to identify those students most in need of 
support and then implementing effective targeted interventions, like 
Leveled Literacy Intervention (LLI), students are closing the 
achievement gap. The chart below shows that a majority of the student 
in LLI during the 2009-2010 school-year made 1, 1.5 or 2 years growth 
in one year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    4. The photo below shows an elementary principal conducting a data 
team meeting with his 3rd grade teachers in front of their Literacy 
Data Wall. The data shows what students are meeting grade level reading 
expectations based on the fall, winter, or spring assessments, and 
which students need further support. Through these discussions, the 
principal can determine if key strategies are being implemented with 
fidelity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    [Mr. Grable's additional submission, ``HCCSC Strategic 
Planning Guidebook,'' may be accessed at the following Internet 
address:]

            http://as.hccsc.k12.in.us/modules/locker/files/
get_group_file.phtml?fid=8786884&gid=1577165&sessionid=b5a5cdff10c351bea
                            25da502bda8ce67

                                 ______
                                 
    Chairman Hunter. Thank you.
    Ms. Marshall?

           STATEMENT OF JENNIFER MARSHALL, DIRECTOR,
        DOMESTIC POLICY STUDIES, THE HERITAGE FOUNDATION

    Ms. Marshall. Thank you, Chairman Hunter and members of the 
Subcommittee. My name is Jennifer Marshall. And I am the 
director of domestic policy studies at the Heritage Foundation. 
And the views I express in this testimony are my own and should 
not be construed as representing any official position of the 
Heritage Foundation.
    A half-century of always expanding an ever-shifting federal 
intervention into local schools has failed to improve academic 
achievement. But it has caused an enormous compliance burden. 
The damage isn't just wasted dollars and human capital that 
could have been more effectively deployed to achieve 
educational excellence. It has also undermined direct 
accountability to parents and taxpayers while encouraging 
bureaucratic expansion and empowering special interests.
    Specifically, we should count the major--the costs of three 
major areas of compliance with federal policy. First, the 
proliferation of federal programs and increased federal 
prescription have created a confusing policy maze. Even the GAO 
has a hard time counting up all the education programs.
    Using a narrow definition, GAO determined in 2010 that 
there were 151 K-12 and early childhood education programs in 
20 federal agencies totaling $55.6 billion in spending 
annually. No Child Left Behind is the most significant, 
including more than 50 programs under 10 titles running more 
than 600 pages. NCLB is the A-3 authorization of the Elementary 
and Secondary Education Act of 1965, which at that time 
included just five titles and 32 pages.
    In 2006, the Office of Management and Budget found that No 
Child Left Behind cost states an additional 7 million hours in 
paperwork at a cost of $141 million. A 2008 Heritage Foundation 
report found that Title 1 funding is so complex now that no 
more than a handful of experts in the country clearly 
understand the process from beginning to end. That complexity 
means many dollars never make it to the classroom to reach 
students.
    For example, in 2004, about 8.4 million children were 
eligible for Title 1, Part A. With $13 billion in funding 
available that year, each child should have been eligible for 
something like $1,500. Yet in a State like Florida, funding 
amounted to, on average, just $554 per student.
    The Obama administration's Race to the Top initiative shows 
the compliance burden that results each time a new strategy 
emerges from Washington. Forty-one states exerted enormous 
energy to apply for the $4.35 billion in federal funding. But 
just 11 states ultimately won Race to the Top awards.
    Louisiana's application, for example, was 260 pages long 
with a 417-page appendix. That took time and money that will 
not be recouped by taxpayers.
    Hundreds of pages in the code of federal regulations 
specify the operation of elementary and secondary education 
programs with 65 pages of regulations from Title 1 alone. As an 
example of the complexity, regulations for paraprofessionals 
dictate that they can have seven specific duties and may not 
perform duties other than those listed, nor may they perform 
prescribed duties unless under the direct supervision, as 
defined in the regulations, of a teacher who meets the several 
requirements of a highly-qualified teacher, also outlined by 
the regulations.
    In addition to complex regulations like these, the 
Education Department has issued guidance on elementary and 
secondary education on 100 occasions just since the passage of 
No Child Left Behind. Second, administrative set-asides and red 
tape diminish education dollars as they pass through multiple 
layers of bureaucracy.
    A 1999 GAO study of 10 federal programs found that by the 
time a taxpayer dollar reached a school district, between 1 and 
17 percent of the funding had been drained on administration. 
As an example at the district level, Fairfax County, Virginia, 
had to set aside a day to train personnel on NCLB requirements. 
The cost of a single day's training for their roughly 14,000 
teachers, 1,000 paraprofessionals and 1,000 administrators was 
the equivalent of hiring 86 instructional personnel year-round.
    Third, the growth of state bureaucracies to comply with 
federal programs has led to a client mentality, undermining 
accountability to parents and other taxpayers. Federal 
intervention has fueled state bureaucracy.
    After the passage of ESEA in 1965, state education agencies 
doubled in size within 5 years. Today, No Child Left Behind 
prescribes in great detail how to measure student progress on a 
specified testing regimen. Each state must complete a 
consolidated state application accountability workbook. Most 
states' completed accountability workbooks run about 50 pages 
long, though some are much longer. For example, Georgia's is 95 
pages, and Florida's is 128 pages.
    Accountability is certainly important. But accountability 
to whom and for what? The status quo focuses on fine-tuned 
aggregate calculations that are most useful for bureaucrats to 
chart the progress of a school, district or state so they can 
apply federal carrots and sticks. Calculations like these are 
not the kinds of information that empower parents. On the other 
hand, this kind of information and detail does absorb countless 
hours of compliance calculations by schools, districts and 
states.
    I commend this Subcommittee for renewing attention to a 
pressing problem in education today. Serious investigation like 
this into the scope and effects of the federal intervention has 
not taken place for more than a decade, despite massive growth 
in the federal role in education. This information is essential 
to inform policy choices that will restore dollars and decision 
making to those closest to the student.
    Washington's role currently stands in the way of that 
objective. And the first order of business is to take stock of 
where we stand.
    Thank you.
    [The statement of Ms. Marshall follows:]

         Prepared Statement of Jennifer A. Marshall, Director,
            Domestic Policy Studies, the Heritage Foundation

    My name is Jennifer A. Marshall. I am Director of Domestic Policy 
at The Heritage Foundation. The views I express in this testimony are 
my own, and should not be construed as representing any official 
position of The Heritage Foundation.
Introduction
    Major federal intervention into local schools began with the 
Elementary and Secondary Education Act of 1965 (ESEA). Since then, a 
half-century of continually expanding, ever-shifting federal 
intervention into local schools has failed to improve American academic 
achievement.
    But it has caused an enormous compliance burden, dissipating 
dollars and human capital that could have been more effectively 
directed to achieve educational excellence. The damage should be 
calculated not only in terms of decades of wasted fiscal and human 
resources and on-going opportunity costs. We must also take stock of 
how federal intervention has created a dysfunctional governance system 
that undermines direct accountability to parents and taxpayers, while 
at the same time encouraging bureaucratic expansion and empowers 
special interests.
    Specifically, we should count the following costs of compliance 
with federal policy:
    1. The proliferation of federal programs and increased federal 
prescription to leverage ``systemic reform'' have created a confusing 
policy maze that only a limited set of experts can navigate.
    2. The growth of state bureaucracies to administer and comply with 
federal programs has given rise to a ``client mentality'' that 
undermines effective educational governance and accountability that 
ought to be directed toward parents and other taxpayers.
    3. The administrative set-asides and red tape associated with 
federal programs diminishes education dollars as they pass through 
multiple layers of bureaucracy.
    I commend this subcommittee and the larger committee for renewing 
attention to a pressing problem in education policy today. Serious 
investigation like this into the scope and effects of federal 
intervention has not taken place for more than a decade, despite 
massive growth in the federal role in education. Policymakers need much 
more information than any of us here today will be able to present. 
Studies by the Government Accountability Office and others are needed 
to get a full and updated accounting of the extent and impact of the 
federal role in schools today. This information is essential to inform 
policy choices that will restore dollars and decision-making to those 
closest to the student. Washington's role currently stands in the way 
of that objective, and the first order of business is to take stock of 
that obstacle.
    1. The proliferation of federal programs and increased federal 
prescription to leverage ``systemic reform'' have created a confusing 
policy maze.
Proliferation of Federal Programs
    Washington's role in education has grown to the point where it is 
difficult to keep track of all the odds and ends of federal 
intervention into this or that aspect of education. Programs include 
things like Women's Educational Equity, the Native Hawaiian Education 
Program, the Carol M. White Physical Education Program, and the 
Challenge newsletter to spread the word about how to fight drugs and 
violence in schools.\1\
---------------------------------------------------------------------------
    \1\ See Guide to U.S. Department of Education Programs, Fiscal Year 
2010, at http://www2.ed.gov/programs/gtep/gtep.pdf.
---------------------------------------------------------------------------
    Even the Government Accountability Office (GAO) has had a hard time 
counting up all the education programs, or even defining what a federal 
program is. Using a narrow definition that excludes programs that don't 
``enhance student learning through school activities and curricula'' 
(which leaves out, for example, food and nutrition programs 
administered through schools), GAO determined in 2010 that there were 
151 K-12 and early childhood education programs housed in 20 executive 
branch and independent federal agencies, totaling $55.6 billion in 
average annual expenditures. According to GAO, 91 percent of these 
programs are federal grant programs, distributed primarily to state and 
local school districts. States were eligible for 65 of the grant 
programs; local districts for 57 programs.\2\
---------------------------------------------------------------------------
    \2\ U.S. Government Accountability Office, ``Federal Education 
Funding: Overview of K-12 and Early Childhood Education Programs,'' 
GAO-10-51, January 2010, at http://www.gao.gov/new.items/d1051.pdf.
---------------------------------------------------------------------------
    This multiplication of programs means multiple applications, 
monitoring of program notices, and program reporting. This increases 
administrative overhead and erodes coherent, school-level strategic 
leadership based on the needs of individual students.
    No Child Left Behind (NCLB) is the most significant of the federal 
laws affecting K-12 education. Programs funded under NCLB constituted 
$25 billion in 2010. NCLB includes more than 50 programs under 10 
titles, running more than 600 pages. NCLB is the eighth reauthorization 
of the Elementary and Secondary Education Act of 1965 (ESEA). The 
original ESEA included just five titles and 32 pages.
    In 2006, the Office of Management and Budget found that No Child 
Left Behind cost states an additional 7 million hours in paperwork at a 
cost of $141 million.\3\
---------------------------------------------------------------------------
    \3\ Federal Register, Vol. 71, No. 202 (October 19, 2006), p. 
61,730.
---------------------------------------------------------------------------
Federal Prescription Increased through ``Systemic Reform''
    Between 1965 and the mid-1990s, the federal role in education 
focused on compensatory and categorical aid, aiming to supplement 
resources for specific student populations (e.g., low-income or English 
language learners) or categorical purposes. In the mid-1990s, the 
federal role expanded beyond these specific interventions to leveraging 
system-wide education reform from Washington. This systemic or 
comprehensive reform seeks to influence all aspects of the public 
school system to produce change in all public schools by working top-
down from Washington, D.C. No area of education policy is off limits 
from federal oversight and federal regulation in this model, opening 
the door to ever-deeper encroachments into and ever-wider compliance 
demands on local schools.
    For example, No Child Left Behind prescribes in great detail the 
measurement of student progress on a specified testing regimen for all 
schools and all students. Each state must complete a ``Consolidated 
State Application Accountability Workbook'' to explain in great detail 
how it will meet the law's prescriptive requirements for judging 
student progress.\4\ Most states' completed ``accountability 
workbooks'' run around 50 pages long, though some are much longer. For 
example, Georgia's is 95 pages and Florida's is 128 pages.
---------------------------------------------------------------------------
    \4\ See, for example, Florida's at http://www2.ed.gov/admins/lead/
account/stateplans03/flcsa.pdf.
---------------------------------------------------------------------------
    Accountability is important, but we also need to ask, 
accountability to whom and for what? The accountability prescribed by 
No Child Left Behind focuses on fine-tuned aggregate calculations that 
are most useful for bureaucrats to chart school-wide, district-wide, or 
state-wide progress--information that is useful for the application of 
federal carrots and sticks. Calculations like ``safe harbor'' to 
account for differences in progress among groups are not the kinds of 
information that empower parents. On the other hand, that kind of 
detail does absorb countless hours of bureaucratic explanation and 
compliance calculations on the part of schools, districts, and states.
    That's characteristic of federal intervention as whole: it is 
distracting because of the many compliance burdens it puts on states 
and localities, but it is also detracts from proper accountability to 
those who have the most at stake in education, parents and other 
taxpayers.
    Case Study in Complexity and Prescription: Title I
    Title I of NCLB is particularly complex and prescriptive, leading 
to many hidden costs associated with program administration and 
compliance with program stipulations.
    A Heritage Foundation report by researcher Susan Aud describes the 
complexity of Title I funding, noting that, due to the increasing 
complexity of the funding structure, ``it is likely that no more than a 
handful of experts in the country clearly understand the process from 
beginning to end or could project a particular district's allocation 
based on information about its low-income students.'' \5\
---------------------------------------------------------------------------
    \5\ Susan L. Aud, ``A Closer Look at Title I: Making Education for 
the Disadvantaged More Student-Centered,'' Heritage Foundation Special 
Report No. 15, June 28, 2007, at http://www.heritage.org/Research/
Reports/2007/06/A-Closer-Look-at-Title-I-Making-Education-for-the-
Disadvantaged-More-Student-Centered.
---------------------------------------------------------------------------
    Because of the complexity in Title I, many dollars are soaked up in 
administrative costs and never make it to the classrooms. For example, 
the report estimates that in FY 2004, there were approximately 8.4 
million children in the United States eligible for Title I, Part A. 
With $13 billion in funding available in 2007, each child should have 
been eligible for $1,500. Yet, in Florida, for example, Title I, Part A 
funding amounted on average to just $554 per student.\6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    Title I is a good example of the increasing complexity in federal 
education funding. Title I, Part A originally comprised just one 
program, the Basic Grant Program. Today it consists of four grant 
programs: Basic, Concentration Grants, Targeted Grants, and Education 
Finance Incentive Grants (EFIG).
    There are rules to determine the total grant amount awarded to each 
state for each of the four programs, using calculations based on the 
number of eligible children in each state's local education agencies 
(LEAs). However, the rules for determining eligibility are not uniform 
across the four programs of Title I, Part A.\7\
---------------------------------------------------------------------------
    \7\ Another criticism is that ``a uniform number for an entire 
state'' is calculated, instead of ``taking into account urban, rural, 
[and] cost of living'' differences. The grant program also contains 
``hold-harmless provisions,'' guaranteeing districts with a certain 
level of poverty funding the next year, regardless of whether poverty 
levels decrease year to year. Also, because due to the way funding 
amounts are calculated, ``small states. . .receive a much larger amount 
per child than larger states, regardless of socioeconomic status.'' 
Aud, ``A Closer Look at Title I,'' p. 3.
---------------------------------------------------------------------------
    Concentration grants are supplemental to the Basic Grant. In order 
to be eligible for the Concentration Grant, ``an LEA must have at least 
6,500 eligible students, or else 15 percent of the total number of 
students must be eligible.''
    The Targeted and EFIG grants are more complex. A complicated system 
of weights is applied to determine eligibility. For the Targeted grant, 
the weights are determined by four thresholds, with five weighting 
categories for each of the four types of thresholds, as well as 
``different weights for the percent calculations versus the number-of-
children calculations.'' \8\ Additionally, the rationale for the 
weights is not completely clear in the legislation.
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
    Determining eligibility for the EFIG is even more complex--
including 60 weighting categories--and incorporates not only weights 
but an ``equity factor'' for each state.
    The kind of complexity we see in just NCLB, Title I, Part A 
illustrates the overall problem we have today with education resources 
lost on deciphering, applying, and reporting on federal program 
specifics.
Case Study: Race to the Top
    The Obama Administration's Race to the Top (RTTT) competitive grant 
program offers a recent example of the compliance burdens that result 
each time a new strategy emerges from Washington, D.C. Although 41 
states exerted enormous energy to apply for $4.35 billion in federal 
funding (a ``small'' program compared to Title I at $15 billion), just 
11 states ultimately won RTTT awards. Many states' grant applications 
totaled hundreds of pages; some states even sent representatives to 
Washington to give presentations on why their state deserved the 
additional funding. Florida's Race to the Top application, for example, 
totaled 327 pages and included a 606-page appendix. Illinois' 
application was 187 pages plus a 644-page appendix, and California 
submitted an application totaling 131 pages in length with a 475-page 
appendix. Some states submitted lengthy applications without receiving 
awards. Louisiana, for example, submitted an application totaling 260 
pages with a 417-page appendix. The significant amount of time and 
money expended on the state's thorough grant application will not be 
recouped by taxpayers.\9\
---------------------------------------------------------------------------
    \9\ U.S. Department of Education, Race to the Top Fund, States' 
Applications, Scores and Comments for Phase I, at http://www2.ed.gov/
programs/racetothetop/phase1-applications/index.html (March 10, 2011).
---------------------------------------------------------------------------
    Not Just Legislation: Regulations and Guidance
    Education regulations can be found in Title 34 of the Code of 
Federal Regulations. Hundreds of pages are dedicated to specifying the 
operation of the Department of Education's elementary and secondary 
education programs. The Title I program has 65 pages of regulations to 
accompany it, prescribing everything from setting and measuring 
progress on academic standards, to outreach to parents, to identifying 
``highly qualified teachers.'' \10\
---------------------------------------------------------------------------
    \10\ Code of Federal Regulations, Title 34, pp. 455-520, at http://
www.access.gpo.gov/nara/cfr/waisidx_10/34cfr200_10.html (March 9, 
2011).
---------------------------------------------------------------------------
    The complexity of these regulations is illustrated by the section 
that describes the duties of a paraprofessional. The regulations 
dictate that a paraprofessional can have seven specific duties and may 
not perform duties other than those listed. Furthermore, the 
paraprofessional may not perform his or her duties unless under the 
direct supervision of a teacher who meets the several requirements of a 
``highly qualified teacher,'' as outlined by the regulations. The 
regulations also provide three components of what ``direct 
supervision'' means.\11\
---------------------------------------------------------------------------
    \11\ Code of Federal Regulations, Title 34, p. 503, at http://
edocket.access.gpo.gov/cfr_2010/julqtr/pdf/34cfr200.59.pdf (March 9, 
2011).
---------------------------------------------------------------------------
    More than 60 pages dictate the operation of federal Impact Aid, 
defining each step from the application process to the distribution of 
funds. The regulations include how the Secretary determines the 
``timely filing'' of an application and how local education agencies 
are to ``count the membership of. . .federally connected children.'' 
\12\
---------------------------------------------------------------------------
    \12\ Code of Federal Regulations, Title 34, pp. 524-586, at http://
www.access.gpo.gov/nara/cfr/waisidx_10/34cfr222_10.html (March 9, 
2011).
---------------------------------------------------------------------------
    In addition to regulations, the Education Department has issued 
guidance on elementary and secondary education on 100 occasions since 
the passage of No Child Left Behind.\13\
---------------------------------------------------------------------------
    \13\ ``Significant Guidance Documents,'' at http://www2.ed.gov/
policy/gen/guid/significant-guidance.doc.
---------------------------------------------------------------------------
    2. The growth of state bureaucracies to administer and comply with 
federal programs has given rise to a ``client mentality'' that 
undermines effective educational governance and accountability that 
ought to be directed toward parents and other taxpayers.
    Federal intervention beginning in the mid-1960s has shifted state 
education systems' orientation toward this new funding source and led 
to increased state education bureaucracy.
    Before the 1965 passage of ESEA, the role of state departments of 
education varied according to each state's need. ESEA converted them 
into a network of state education agencies (SEAs) charged with 
disseminating federal grants to local districts and implementing 
federal education policy. A massive growth in state education 
bureaucracy followed: between 1966 and 1970, Congress appropriated $128 
million for SEAs, and their staff doubled during that period.\14\ 
Growth in the last half-century has been dramatic: in the early 1960s, 
just 10 state education agencies had more than 100 employees. By 2002, 
five state education agencies had more than 1,000 employees.\15\ 
Federal funding significantly underwrites state-level education 
bureaucracy. In fiscal year 1993, 41 percent of SEA funding came from 
the federal government.\16\
---------------------------------------------------------------------------
    \14\ Department of Health, Education, and Welfare, Office of 
Education, ``State Departments of Education and Federal Programs: 
Annual Report Fiscal Year 1970,'' pp. 1, 4.
    \15\ Fred C. Lunenburg and Allan C. Ornstein, Educational 
Administration: Concepts and Practices, Fifth Edition (Belmont, CA: 
Thompson/Wadsworth, 2008).
    \16\ U.S. General Accounting Office, ``Education Finance: Extent of 
Federal Funding in State Education Agencies,'' GAO/HEHS-95-3, October 
1994, p. 2.
---------------------------------------------------------------------------
    Administrative bloat resulting from federal regulations does not 
stop at the SEA level; it trickles down to the school level. Trends 
since the 1950s indicate that the number of teachers as a percentage of 
school staff has declined significantly. In 1950, more than 70 percent 
of elementary and secondary instructional staff was composed of 
teachers; by 2006, teachers made up just slightly more than 51 percent 
of public school staff. Administrative support staff increased from 
23.8 percent to 29.9 percent during that same time period.\17\
---------------------------------------------------------------------------
    \17\ U.S. Department of Education, National Center for Education 
Statistics, ``Digest of Education Statistics, 2008,'' at http://
www.nces.ed.gov/programs/digest/d08/tables/dt08_080.asp?referrer=list 
(March 10, 2011).
---------------------------------------------------------------------------
    Another problem with this bureaucratic bloat is the fact that the 
proliferation of federal programs seems to be reflected in a lack of 
integration within the program-oriented divisions of state education 
agencies. Similarly, local administrative staff seem to operate in 
silos when it comes to federal programs. As a 2010 GAO report noted, 
``Of the district staff who had administrative responsibilities, two-
thirds reported administrative responsibilities for only 1 [program]; 
few staff had responsibility for more than 3 programs.'' \18\
---------------------------------------------------------------------------
    \18\ U.S. General Accounting Office, ``Federal Education Funding: 
Allocation to State and Local Agencies for 10 Programs,'' GAO/HEHS-99-
180, September 1999,, p. 25, at http://www.gao.gov/archive/1999/
he99180.pdf.
---------------------------------------------------------------------------
    In this way, federal programs detract from integrated, strategic 
education leadership at the state, local and building level.
    3. The administrative set-asides and red tape associated with 
federal programs diminishes education dollars as they pass through 
multiple layers of bureaucracy.
    The federal Department of Education has spent the past three 
decades taxing states, running that money through the Washington 
bureaucracy, and sending it back to states and school districts. But 
for 30 years, this spending cycle has failed to improve education.
    A dollar gleaned from state taxpayers and sent to the federal 
Department of Education is then sent, through complex funding formulas 
or grant programs (see the Title I discussion above), back to state 
education agencies. SEAs in turn send that money to local education 
agencies, which in turn send that money to individual schools. Each 
step along the way diminishes the funds available to local schools as a 
result of administrative set-asides and other spending. By one 1998 
estimate, between just 65 to 70 cents of every dollar makes its way to 
the classroom.\19\
---------------------------------------------------------------------------
    \19\ Education at a Crossroads: What Works and What's Wasted in 
Education Today. Subcommittee Report. Subcommittee on Oversight and 
Investigations of the Committee on Education and the Workforce. U.S. 
House of Representatives. One Hundred Fifth Congress, Second Session 
(July 17, 1998), at http://www.eric.ed.gov/PDFS/ED431238.pdf
---------------------------------------------------------------------------
    A 1999 GAO study of 10 specific federal programs found that by the 
time a ``federal'' dollar reached a local school district, between 1 to 
17 percent of the funding had been drained on administration. GAO found 
that ``Overall, 94 percent of the federal education funds received by 
the states for these 10 programs [studied] was distributed to local 
agencies such as school districts. If the $7.3 billion appropriation 
for the Title I program is excluded, the overall percentage of funds 
states allocated to local agencies drops to 86 percent.'' \20\
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    The same 1999 GAO report found that ``too much federal funding may 
be spent on administration and that school personnel are incurring 
`hidden' administrative costs as they spend time fulfilling 
administrative requirements related to applying for, monitoring, and 
reporting on federal funds.'' \21\ The report noted the difficulty in 
determining what constitutes administrative activities because ``what 
is considered administration varies from program to program.'' \22\
---------------------------------------------------------------------------
    \21\ U.S. General Accounting Office, ``Federal Education Funding: 
Allocation to State and Local Agencies for 10 Programs.''
    \22\ Ibid.
---------------------------------------------------------------------------
    Even the federal funds that reach school districts are not immune 
from the administrative compliance burden. Reports from school 
districts provide real-life examples of the administrative burden felt 
from heavy-handed federal regulations. A Fairfax County, Virginia, 
school district, for example, noted:
    ``The school division lengthened the standard teacher contract from 
194 days to 195 just to allow for extra [NCLB] training time. The cost 
of setting aside a single day to train the roughly 14,000 teachers in 
the division on the law's complex requirements is equivalent to the 
cost of hiring 72 additional teachers. The law also affects 
paraprofessionals: an extra day's training equates to the cost of 
hiring about ten additional instructional assistants. There are roughly 
1,000 administrators who require training as well. A day's training 
represents the cost for four additional assistant principals. Thus, 
each day out of the year that is set aside to explain the law results 
in a missed opportunity to assign 86 instructional personnel year-round 
to interface directly with the community's children and work directly 
to address their academic needs.'' \23\
---------------------------------------------------------------------------
    \23\ ``The Cost of Fulfilling the Requirements of The No Child Left 
Behind Act for School Divisions in Virginia and Report to the Governor 
and General Assembly on the Costs of the Federal No Child Left Behind 
Act to the Virginia Department of Education,'' Virginia Department of 
Education, September 2005, at http://www.doe.virginia.gov/
federal_programs/esea/reports/
appendices_cost_fulfilling_requirements.pdf.
---------------------------------------------------------------------------
    The administrative compliance burden siphons resources that should 
be directed to students. Moreover, it is unclear whether the reports 
required of states are always used in a meaningful way by the U.S. 
Department of Education. During a lecture delivered in April, 2007 at 
the Heritage Foundation, then Rep. Pete Hoekstra (R-Mich.) recalled his 
visits to the U.S. Department of Education as chairman of a House 
subcommittee on oversight and investigations:
    ``We'd knock on doors, asking, `Do any of you read the reports? Who 
reads these reports and this paperwork that comes back from the states, 
and who issues these rules and regulations? Have you ever been to 
Colorado? Is there anybody here from Michigan?'--you'd have to go 
through the building for a while before you'd find somebody--`And is 
anybody here from the Second Congressional District of Michigan?' No, 
but they're putting together all these mandates and requirements 
without knowing the parents, kids, school boards, or the economic 
conditions of the people that they're writing all these rules and 
regulations for.''
Conclusion
    The federal role in education has created an enormous compliance 
burden for states and local schools. Some of this can be quantified in 
terms of paperwork, time, and resources. But the cost of compliance 
should also be calculated in terms of the erosion of good governance in 
education. The proliferation of federal programs and the ever-
increasing prescription of federally driven systemic reform distract 
school-level personnel and local and state leaders from serving their 
primary customers: students, parents, and taxpayers. The status quo 
engenders a client mentality as officials at the state and local level 
are consumed with calibrating the public education system to 
Washington's wishes. To succeed, education reform must be more 
accountable directly to parents and taxpayers.
                                 ______
                                 
    Chairman Hunter. Thank you, Ms. Marshall.
    Thank you all for your testimony.
    I am going to start out by talking about--I guess, Mr. 
Grimesey, you mentioned one concrete example of how paperwork 
makes you more inefficient--I mean, less efficient and takes 
time and resources from what you really need to be doing, which 
is making our kids successes. What are some more examples, 
concrete, no-joke examples of paperwork requirements that are 
redundant and duplicative and time-consuming and, in your 
opinion, may not be needed?
    Mr. Grimesey. The most recent example--and when our staff 
was invited late last week to pull this together, we had to 
think of the most immediate examples, Mr. Chairman. The 
expanded civil rights data collection process that was 
implemented in the past year required over 100 man-hours to 
collect information, which, you know, given the desired 
outcome, was certainly worth our while.
    Our problem was that it was information that had already 
been reported to our SEA and simply had to be repackaged. This 
would be a classic example of duplication where every moment 
that we put into that was information that we had, just in a 
different form. It had to be repackaged, collected in a 
different way and sent back. That would have been a good 
example of USDOE and SEA articulation that could have resulted 
in less impact at the local level.
    The other one that we are currently working through is 
some--a new interpretation of data that needs to be collected 
on our efforts to help special needs students transition into 
adult life following their departure from school. We are now 
trying to sort out how we are going to go about expanding 
personal contacts with all graduates beyond graduation. That 
includes those that left us in 2010 as well as 2011.
    Our success is being evaluated based on the total number of 
completed surveys we get from these students, needing to track 
them down, needing to document that we made at least four 
attempts to find them. Again, there is no quibble with the 
outcome. There is no quibble with what we are trying to 
accomplish. We just don't have enough people to do these 
things. We don't have people to just spend time trying to track 
these individuals down. I will stop there, Mr. Chairman. So if 
you would like me to----
    Chairman Hunter. Let me ask you this because you probably 
have a central office. And you have all of your schools. What 
is the impact on your individual schools compared to the impact 
on your clearinghouse office, if you will?
    Mr. Grimesey. In the case of--let us just follow-up with 
the transition program, which we support in theory. I asked our 
director of special education--you know, with the help of Title 
6(B) money and our local match, we employed last year a 
transition specialist. So we added a staff member to make sure 
that we could comply.
    Again, since the aim was good, we don't mind having a 
transition specialist. But I asked her point blank on Friday 
afternoon as I was preparing--and she was describing some of 
the requirements that come with this position. I said, ``What 
percentage of this individual's time is devoted to the service 
of the students for which this individual was hired? And what 
percentage of this time does this individual devote to making 
sure we comply with all the requirements associated with that 
money?'' And the breakdown was 15 percent in service to 
students and 85 percent in service to regulatory compliance.
    Chairman Hunter. That pretty much states it well.
    Mr. Willcox, kind of same question to you, as the last 
question to Dr. Grimesey, is where do you feel that burdensome 
regulatory pinch the most. Is it in your main office? Do your 
teachers feel it more? Do your individual schools? How would 
you place it?
    Mr. Willcox. I would say it is pretty evenly shared. Our 
home office, our centralized office, if you will--we call it 
the home office--bears the brunt of this. But for the example I 
mentioned before around Title 1, these are things that must be 
done at the school site. The principal and the teachers and the 
coaches are the folks that know where time is being spent and 
therefore, are the ones that need to report out against how 
that time is being spent to meet the requirements of reporting. 
So I would say it is an equally shared burden.
    The only other example that I would share with the 
Committee is we recently were honored to be selected to 
participate in the charter school expansion program, a federal 
grant program that is going to help us open more schools across 
California in the neediest communities. And part of our grant 
application for that program we budgeted for a full-time person 
just to maintain the reporting requirements that are associated 
with that program because we know that the team that we have 
today won't be able to keep up with the requirements. And it is 
important for us to be able to access those funds to open new 
schools.
    Chairman Hunter. Thank you both. And you happened to end 
perfectly on time, which is good, I think, for me.
    Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    Mr. Grable, prior to NCLB, states and districts reported 
the student achievement data based upon the average across the 
board. I think Jack Jennings and I, prior to 1994, played 
around with the word, ``disaggregate.'' It was being used by 
other professionals at the time. But NCLB really insisted upon 
that.
    The process prior to that of just going across the board 
for the whole student body hid the actual data on student 
performance and achievement gaps and allowed the under-
performance of groups of students to go unnoticed. Do you agree 
that this disaggregation of data required by NCLB led to more 
accountability in the system and allowed your district to 
better target resources for the students who are most in need?
    Mr. Grable. Absolutely. Jim Collins states that, 
organizations only improve where the truth is told and the 
brutal facts confronted. Those brutal facts come from 
disaggregating data. And we were able by disaggregating our 
data to meet federal requirements to better identify the 
students that really needed the support and then target the 
support to those students.
    Mr. Kildee. So you think it has--and we have various 
subgroups, and those subgroups have, very often, devised some 
means to break through some of those learning problems or some 
of the deficiencies they may have, economically, belonging to a 
minority group, maybe some of the biases that have led to a 
certain status in their performance. Do you feel that that 
separation and making sure that subgroup is given some special 
attention, maybe special methods of reaching them, has been 
helpful?
    Mr. Grable. Absolutely. You have to look at every group. 
And that is part of disaggregation. Look at all of your data. 
Look at your sub-groups. And you even go above and beyond the 
subgroups. You know, we are looking at gender. We are looking 
at the subgroups in even smaller, fine-grained pieces. That is 
the heart of RTI. It is early identification and early 
intervention for those students. So the schools we brought out 
of corrective action--one was for special education students, 
and one was for free and reduced lunch students.
    So by disaggregating that data and targeting the resources 
to meet the needs of those students, we were able to pull them 
out of corrective action. But again, it goes back to having the 
data available and disaggregating it to find out which students 
needed what supports.
    Mr. Kildee. You find that within those subgroups that all, 
most of the students remain in that subgroup throughout, or are 
some able to move up from that subgroup, maybe to a different 
subgroup, because of some of the special methods we use in 
reaching them?
    Mr. Grable. Free and reduced lunch is based off of the 
parents' income. So, I mean, a lot of times their student 
achievement, obviously, increases. But their subgroup may not 
change. Special education--it depends on the identification of 
the student. We have had a limited number of students that have 
transitioned out of special education because they have made 
enough gains. But typically, they are always going to have that 
disability. They just find ways to work around the disability 
and ways to perform. That is our job, to help them, give them 
strategies and meet their needs, to meet their disability. And 
that is part of the process.
    Mr. Kildee. So then your disaggregation data really pushes 
you to find the best way to reach that student to help that 
student grow? You talk about growth models. Do you see some 
growth within those subgroups?
    Mr. Grable. You have to know where they are to know where 
to take them next.
    Mr. Kildee. Ms. Marshall, I appreciated your testimony 
because all are worried about asking and asking and asking for 
things that aren't really going to be used sometimes. Right? 
But yet we know knowledge is power. Could you comment on how we 
can balance this to make sure those subgroups are reached 
without imposing just questions for needless, unused data?
    Ms. Marshall. So I suppose it all goes back to our 
philosophy of what kind of accountability we are looking for 
here, asking the basic questions, accountability to whom and 
for what. What is the most powerful kind of accountability in 
education? And we believe that it is accountability directly to 
parents and taxpayers. To the degree that the federal role in 
education intervenes in a way that disrupts that direct 
accountability, it hinders the most powerful force for 
educational accountability.
    So the ultimate kind of disaggregation of data would, of 
course, be individualized data sent right to parents and 
taxpayers. And I was glad to hear Mr. Grable talking about many 
of the ways that they have real-time access by parents to the 
data for their students. That is probably the most important 
thing that his school and school system do, is directly inform 
parents. How can we take off the layers of federal and state 
bureaucracy so they can focus on doing that, specialize in 
getting them the information they need so those closest to the 
child can make the decisions necessary for that particular 
child's needs?
    Mr. Kildee. Thank you very much. I appreciate both your 
answers. And they differ a bit, but they complement one another 
also. Thank you very much.
    Chairman Hunter. The chair thanks the ranking member.
    And I would now like to recognize the chairman of the full 
Education and Workforce Committee, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thanks to the witnesses. A great panel.
    We are looking at the reauthorization of the Elementary and 
Secondary Education Act in some form or another. We are 
probably going to break that down into pieces.
    And clearly, one of the things we have got to understand, 
Ms. Marshall, as you said, is what is the scope of the 
challenge out there in some of these areas. And we have heard 
now on a couple of occasions that the paperwork burden, just 
compliance, to use the word that a couple of you have, is 
pretty daunting.
    In fact, Dr. Grimesey, you said that some of these programs 
you don't even bother with because the benefit isn't worth it. 
You don't have enough staff. It is just not enough return on 
the investment of time and your other resources.
    What do you want us to do about that? What would you like 
to see Congress do?
    Mr. Grimesey. Thank you, Chairman Kline. And I do 
appreciate the opportunity to clarify to you that I do know the 
difference between you and Chairman Hunter. [Laughter.]
    I meant that as a compliment earlier.
    Mr. Kline. I am the old guy. That is the difference.
    Mr. Grimesey. After I met him, I knew I had complimented 
you. We just recently, just about two weeks ago, I had received 
a letter and then a phone call from a representative from the 
Western Educational Lab on behalf of--contracted with USDOE to 
request a random sample of school divisions to participate in 
an extra layer of data reporting related to ERA-funded 
programs. The key word in the letter I received was optional. 
And I was courteous when I received the phone call, but I 
surprised the caller by indicating that I was exercising our 
right to opt out of the program.
    And that really hurt me as a professional because it is in 
our DNA to want to provide information to help others learn to 
help us. And I have just been real impressed with Mr. Grable's 
remarks today because I couldn't concur more. I couldn't say 
the same things any better than he has.
    We have seen distinct benefits from a number of the 
accountability initiatives that the Federal Government has 
promoted. But at the same time, I am not talking about that. I 
am talking about what comes down the pike.
    We have chosen not to participate in one element of the 
teacher innovation grant program. We have chosen not to 
participate in that as we have developed our own evaluation 
process that does build a closer tie-in between student 
achievement and teacher evaluation because it had certain 
elements to it that that were frightening from the standpoint 
of sustaining our regulatory compliance. I don't know if I am 
answering your question.
    Mr. Kline. Well, not quite. If I could--I mean, if we are 
going to take some legislative action here, we are going to 
write a new law, what would you like to see us do to address 
this problem that you don't have the resources, you have got 
programs out there? What do you think we ought to do about 
that?
    Mr. Grimesey. I don't know. It is complicated.
    Mr. Kline. Sure enough.
    Mr. Grimesey. If there was a message I could leave you with 
today--is that I believe the Federal Government has probably 
reached the limit of what it can do to promote the kinds of 
benefits that we have heard from Indiana today and which, if I 
had prepared differently, I could have given a similar 
presentation on. What causes us the greatest amount of fear is 
where are we going to go from here, how much more are we going 
to expand this.
    My most immediate need right now is that the U.S. 
Department of Education declined Virginia's request to level 
the arbitrary pass rates for the next 2 years as Virginia 
attempts to increase the rigor or its curriculum. And our 
intent in Virginia was to improve student learning by making 
the curriculum more rigorous, not through arbitrary pass rates.
    So if you will permit us, right now in Virginia, our major 
concern is the arbitrary pass rates. And we need immediate 
regulatory relief from those.
    Our hope is that while Congress debates grand reforms, that 
we would rather see us tweak the current system, not to take 
away the benefits that Mr. Grable has described, but to not 
make this--not let this thing get worse than what it is right 
now. So forgive me for dodging the question.
    Mr. Kline. Kind of a ``do no harm.'' You are ready for this 
side of the--thank you. Thank you very much for that.
    Mr. Grimesey. No threat.
    Mr. Kline. I am going to stop. I am going to run out of 
time.
    But, Mr. Willcox, you are here representing some highly 
successful charter schools, very successful graduation rates 
and so forth. And you say that one of the strengths is the 
flexibility that you have got. And yet, as I understand it, you 
are not opposed to greater accountability. And I am trying to 
understand how your support of greater accountability and the 
burdensome paperwork we have been talking about here and the 
flexibility that makes you successful--how does that all match 
up? What kind of accountability are you talking about?
    Mr. Willcox. Thank you. For us, the two are linked hand-in-
hand. As I focused in my comments on the inputs, on how we do 
our work and how we approach our work, where decision making 
happens in our school system in exchange for higher levels of 
accountability. For most states and for California, in 
particular, where we do our work, we sign up for a greater 
level of flexibility and an outcome. So the accountability is 
focused on outcome for students over a period of time. For us, 
it is typically over 5 years.
    That outcome is to deliver high levels of student 
achievement. In exchange, we get more decision making for our 
administrators, for our teachers, for our schools on the how, 
on the inputs and what happens inside of our schools. That is 
what I was referring to.
    Mr. Kline. My time has indeed expired.
    I yield back, Mr. Chairman. Thank you.
    Chairman Hunter. I thank you for the opportunity for 
letting me gavel down my own chairman. [Laughter.]
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    I note with great interest our witness, Mr. Grable, saying 
that what gets measured gets done. And I thought that was a 
really positive way to look at how we can use the information 
and the data that we collect.
    Mr. Willcox said in his testimony that he would assume a 
posture that recognizes that compliance to regulation takes 
resources away from students. That seems to set up an either/or 
kind of a dichotomy.
    And, Mr. Willcox, I am sure that you are not saying that 
data collection is not important and that it--that data should 
be used to inform decisions on what is best to enable a student 
to learn. So I hope that I am not taking, what you are saying 
in a way that you didn't intend.
    Mr. Willcox. And definitely not. We are data junkies, if 
you will, at Aspire. We collect data on everything that we 
possibly can so that we can make better decisions. The point I 
was trying to make and I hope is clear is that we are 
definitely supportive of and would never argue against data 
collection around what it is we are trying to achieve. The data 
collection around the how and the inputs of how we are 
achieving it is the data collection that I am referring to. And 
sometimes that is critically important.
    I think the message that I hope everyone would leave from 
our organization's perspective is that the posture on data 
collection around the how should be--the posture should be, is 
this going to take away from the what, is this going to take 
away from what we are trying to achieve. And if it is, let us 
figure out a way that we can moderate that cost, not around 
the--not around the outcomes at all.
    Ms. Hirono. Yes, thank you. I think we are in agreement 
that data collection is very important, not just for the sake 
of data collection, but, as I said, to really inform how best 
to enable our students to learn.
    Mr. Grable, you described your district as a Pre-K-12 
district. And I find that really important because there are 
many of us, including myself, who are champions of quality 
early education. And in checking your Website, I note that you 
place a special emphasis on making sure that there is access to 
quality early education in some of your--some of the schools 
with your low-income schools where presumably the need is 
great. So can you tell me a little bit about how you, make 
these priority decisions in terms of access to quality Pre-K?
    Mr. Grable. We currently have Pre-K programs in three of 
our buildings. And they are three of our four highest socio-
economic need buildings. They are a combination of special 
education pre-school and like peers. So the decision is where 
is the need and how can we service the most of our students.
    Ms. Hirono. I take it that you have concluded that when you 
provide resources for quality early education, that you 
certainly set the stage for school success for these children 
moving forward.
    Mr. Grable. Absolutely. We see a huge difference in 
students that participate, especially participate in literacy-
based pre-schools. We see a huge difference in those students 
as they enter kindergarten. And we also offer full-day 
kindergarten for all of our students. We also think that early 
childhood piece makes a huge difference, then, as the kids 
transition into elementary school.
    Ms. Hirono. The president's budget includes $350 million 
for early learning, what he calls early learning challenge 
funds. I take it that you would support that kind of a federal 
incentive to enable school districts and states to move ahead 
with their quality early learning programs.
    Mr. Grable. Absolutely. Kids need that foundation to be 
successful, then, later in school.
    Ms. Hirono. We had a hearing a couple of weeks ago where 
the witness--he was a Republican witness--said that the most 
important thing we could do to really turn around our education 
system in terms of dollars put in and the returns that we get 
is pre-k, pre-k, pre-k, which I was very gratified to hear. I 
am wondering whether the other two educators sitting to the 
right of you also agree that emphasis on quality early 
education and support for that are really foundational. 
Briefly.
    Mr. Grimesey. Can't argue with that, Congresswoman.
    Ms. Hirono. Great. Thank you.
    Mr. Willcox. Would not argue with it at all.
    Ms. Hirono. Okay.
    Ms. Marshall, you talked in your testimony about the 
problems surrounding, as an example, Title 1 funds. And you 
note that in Florida, each child should have received $1,500, 
but only received $544, by your reckoning. And a 2009 report 
from the Department of Education indicates that districts spent 
an average of about 10 percent of Title 1 funds on 
administration. And your testimony indicates that that is not 
what happened in Florida.
    And so, you said that Title 1 dollars never make it to the 
classrooms, and yet 90 percent of Title 1 dollars really do go 
to the classrooms. So could you submit for the record your 
methodology for determining the numbers that you provided in 
your testimony?
    Ms. Marshall. We will be happy to submit that paper for the 
record.
    Ms. Hirono. Thank you.
    Is my time up?
    Chairman Hunter. Yes, it is.
    Ms. Hirono. Yield back. Thank you.
    Chairman Hunter. The gentlelady's time is expired.
    Ms. Hirono. Thank you, Mr. Chairman.
    Chairman Hunter. Thank you, Ms. Hirono.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman. I am sitting here 
with all the things that I think I need today: paper--and if 
that is not enough, I have got an iPad. If that is not enough, 
I have got a BlackBerry. And last of all, I have got a phone, 
just so I can get further information. And I think that is what 
you are going through, too.
    And so, my question is, first of all, how can the states 
and the feds work together to ensure that there is not the 
duplication. And if there had been any--if we are going to ask 
for something, that it can be incorporated with state or do the 
same thing, rather than duplicate burden that we are putting on 
you, and, for example, with the growth model.
    And I think that, you know, we are really looking at that 
and how we can get that information to the parents and get that 
information, you know, to the community. And yet, we can tell 
that we will know that there is that link in each student's 
performance, which is probably the most important, will also go 
into a data, which we can collect.
    And then, my other question is with the paperwork. What 
about privacy? And how can we, so that there--does there have 
to be duplication because of certain privacy things that the 
state has that local school board has and what we are 
requesting? And then, how could we do away with the paper? And 
the last question is do you read it.
    Dr. Grimesey?
    Mr. Grimesey. Congressmember Biggert, at my level, I have 
been really excited about the growth model for a number of 
years, been looking for this. And then, just like the dog who 
chases the truck, be careful what you wish for, now that you 
have got the rear bumper in your mouth. Fido, what do you do 
with it?
    Let me just share what our concern is. And I haven't quite 
figured out your--an answer for you yet. As we get closer to 
applying a growth model with some sort of coefficient that 
demonstrates growth and we drill that down to a student's 
growth in a given year and the growth of a teacher's classroom, 
we share that same concern that you have about confidentiality, 
but even more so, perception.
    If we create an arbitrary line and say, 25 percent above 
gets some rating and the others below get another rating, then, 
obviously, those that are just below the line get stigmatized. 
And I can only ask the committee to please take seriously the 
words of superintendents in your own local districts about what 
that does to the local culture in those organizations.
    I am very fearful of what would happen if 50 percent or 75 
percent of my teachers were all high-performing teachers and, 
depending upon the array of those coefficients, how they would 
be aligned. I don't have the answer. Orange County isn't in a 
position to offer that to you. I can only share with you what 
we are worried about now, even though we are proponents of a 
growth model.
    And I don't know where that goes once the newspapers start 
listing teachers and indicating who goes where and creating 
perceptions of how effective those teachers are or aren't as 
opposed to what we are seeing in the classroom with them. So 
forgive me for not fully answering it. But I appreciate----
    Mrs. Biggert. Thank you. But that is helpful.
    Mr. Grimesey. Yes, ma'am.
    Mrs. Biggert. Anyone else?
    Mr. Grable. If I may address the paper issue and the 
redundancies. And, you know, we are living in the 21st century. 
We need to work smarter, not harder, and utilize technology for 
a lot of that. An example would be with our IEPs, we use an 
electronic IEP process in our state. So all IEPs are done 
electronically and managed electronically. So it limits the 
paperwork that needs to be done and housing that.
    As far as reporting upwards, we report most of our data 
through the state through STN numbers, the student testing 
numbers. And then those are linked with the SPN numbers, which 
are the teacher identifying numbers. Well, to me, that ought to 
be able totransition up to the federal level through the same 
process so it eliminates the redundancies. We are reporting the 
same information to our states and then turning right around 
and reporting the same information to the Federal Government. 
If it flows through the SPN and STN numbers, you ought to be 
able to do it one time. And again, it is electronically.
    Ms. Marshall. If I might answer as well. In terms of the 
federal, states' coordination and so on, I think that the 
Federal Government has to admit that it is ineffective at 
systemic education reform. That is the business of states. They 
are much more effective and efficient at the systemic reform. 
We see great results coming out of Florida closing the 
achievement gap there.
    In 1965, the Federal Government intervened to--for the 
purpose of supplying extra resources to those children in need, 
compensatory education. That role grew in the 1990s to be--to 
make an effort at systemic reform. Let us try to reform the 
entire American public education system through this small 10 
percent lever. That hasn't happened. We need to return that 
role to the states.
    Mrs. Biggert. Thank you.
    Yield back.
    Chairman Hunter. Thank the gentlelady.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    You know, I think everybody agrees that we need this 
information. There is no way that you can do any kind of 
assessment of students without the data. If it is not 
disaggregated, the principal wouldn't know which teachers were 
good or consistently good or consistently bad with certain 
subgroups. If we don't disaggregate by class, if a school 
fails, you don't know, where the problem is within the school.
    So and then civil rights--there is no way you can do any 
civil rights enforcement unless you have the data.
    Mr. Grimesey, you are a small school division. And you have 
got to do all this data collection. Do you get any technical 
assistance on what computer to buy or what software to buy? Or 
do 15,000 school districts kind of home-bake their own system?
    Mr. Grimesey. We get guidance from the Virginia Department 
of Education. We do have a director of technology. And we have 
a director of testing, assessment and accountability among our 
small group of people.
    Mr. Scott. Do all the counties in Virginia have the same 
computer system and software that is compatible with each 
other?
    Mr. Grimesey. Most do. All don't. Some of our larger school 
divisions have gone their own way. And some of our connecting 
issues relate to that.
    Mr. Scott. Well, once you have--some of this data is just 
statistical. That is you put it in once, and it is there. And 
if you have to send it out to one group and then have to send 
the same information to another group, it shouldn't be that 
hard because a couple of keystrokes, you reformat it and send 
it, if it is compatible and if the person asking for it has the 
same computer system the last person asked for. Does the 
Department of Education make any effort to insist that the 
information they are asking for can be obtained in a way that 
is compatible with the last person that asked for some 
information?
    Mr. Grimesey. That is currently a matter of vigorous 
discussion at the meetings at the Department of Education--
State Department of Education--is conducting with people in the 
field in these recent weeks since the January 28th memorandum.
    Mr. Scott. So Virginia is trying to do it within Virginia. 
Is there any federal effort to--when we ask for information 
from several different departments? Is there any effort to make 
sure that the information can be obtained in the same format?
    Mr. Grimesey. I can't comment on that, Congressman. I can't 
give you anything specific on that.
    Mr. Scott. Would it be helpful if in reauthorizing No Child 
Left Behind that we insisted that the Department of Education 
technology department recommend one format for people to send 
their information in so if some other program gets invented, 
the information can be obtained through a couple of 
keystrokes----
    Mr. Grimesey. Certainly, in my----
    Mr. Scott [continuing]. Without having to reinvent the 
wheel every time you ask for information?
    Mr. Grimesey. Certainly, in my comments about collaboration 
between the USDOE and the SEAs, I had that in mind. And 
assuming that it is funded properly, our department of 
education would be delighted.
    Mr. Scott. So if somebody needs some information, they can 
just send it to you--or you can download a program if you have 
got it. If the information is there with a couple of 
keystrokes, they can get all of your information. That would be 
simpler than having you hire a technician to reformat the 
information and go through all that.
    Mr. Grimesey. Certainly would help, assuming that it is 
still okay that we are uploading individual student grades and 
teacher evaluations, which I have some----
    Mr. Scott. Well, whatever they have----
    Mr. Grimesey [continuing]. Philosophical questions about.
    Mr. Scott. Well, whatever they have asked for, if you are 
providing it, you ought to. Now, that is for the statistical 
information.
    Mr. Grimesey. Yes, sir.
    Mr. Scott. Now, if you have got to write a monthly essay 
about what is going on, that is a little different. How do you 
deal with those?
    Mr. Grimesey. The closest example that I could cite from 
one of our elementary schools that has been on school 
improvement and has met AYP would be my own observations of 
teachers and principals spending time in school improvement 
meetings where about 30 or 40 percent of the conversation has 
to do with how we fill out the form and what are they looking 
for when we put that anecdotal information in there. They have 
the conversation about how to improve the children, but then 
they spend extra time trying to think about how to translate 
that so that the state and Federal Government be satisfied with 
the way that they filled out the form and that they expressed 
what they think they want.
    Mr. Scott. Well, if you can help us write regulations to 
simplify that--and, Ms. Marshall, I think, too, that would be 
helpful.
    Mr. Grimesey. Our message today is just keep the 
regulations as few as possible.
    Mr. Scott. Thank you.
    Chairman Hunter. Thank you.
    Mr. Barletta?
    Mr. Barletta. Thank you.
    Mr. Grimesey, over the past month, this committee has heard 
from a number of witnesses concerning the burdens of federal, 
state and local regulations on our nation's public schools. As 
a superintendent since 2001, you can attest of how these 
regulations have grown over the past decade. I am specifically 
interested and hope you can shed light on how paperwork 
requirements have grown since 2001 and if these requirements 
have impacted in any way what is being taught in your schools.
    Mr. Grimesey. That is a good way to frame the question, 
Congressman. Thank you. I would have to agree with Mr. Grable 
in terms of what the intent has been all along. I believe that 
we are having richer conversations about student learning. I 
believe that we are doing a better job of drilling down and 
finding individual student needs.
    I think that we have come to a place, though, when we start 
nearing a 100 percent pass rate that there is a misalignment 
between what we are expecting in terms of what is measurable 
and what can be published and what people will like to hear as 
opposed to what children are really doing in classrooms. I 
would invite the discussion about are we teaching to the test 
or do we have the ethical question of should we ever teach a 
child--should we ever test a child on something we didn't 
teach.
    I deviate just a little bit because it is not about so much 
the physical manifestation of paper as we think about it 
traditionally. Obviously, we can find computers and have found 
computers--I don't want to make it sound like Virginia is 
totally deficient compared to Indiana. We still are addressing 
these issues.
    I think the bigger question is whether or not a pass rate 
trumps a more rigorous curriculum. I spend a lot of time with 
local businesspeople and with higher ed. people thinking about 
what children need to be able to do in this coming century. I 
have been doing that since the early 1990s, was doing it long 
before No Child Left Behind.
    The whole notion of children learning more as--for being 
motivated learners as opposed to their teachers being 
terrified. We use paperwork as a bit of a symbolic 
representation of what this is about. But the bigger question 
is what is actually happening behind all these increased pass 
rates. Do they truly reflect what students should be learning?
    I think we probably reached the limit of improved student 
learning as measured by pass rates. But as we begin to progress 
out of that, speaking from my own school division, we have got 
to find a way for children to be able to know more and do more 
and not just be looking at pass rates. That whole notion of 
meeting pass rates drives the entire culture.
    And I spend as much time trying to make sure that my 
teachers aren't teaching to the test, if you will, and making 
sure that instruction is rich. And that is what I am most 
protective of. The numbers of staff that I have--and we will 
always keep finding ways to find technology to help us cut 
corners and try to meet more and more regulations. But, please, 
ask yourselves if those regulations are important.
    Does the state and the Federal Government really need to 
know the individual lettered grades of our students and--and 
the individual teacher performance ratings? That is my problem. 
It is my school board's problem. I don't know that I am going 
to be a better superintendent because somebody in Washington is 
asking me to report what I am doing with those teachers. So I 
thank you for allowing me that opportunity, sir.
    Mr. Barletta. Thank you. You know, this discussion reminds 
me so much of the--in the health care bill, the 1099 provision 
and the unnecessary burden that we were implying onto 
businesses of paperwork. And I am very proud that this Congress 
has repealed that provision, recognizing that, you know, how 
burdensome paperwork can become to, not only a business. But 
today we are getting an education on how this paperwork is 
affecting our education and educating our kids, which is the 
most important principle that we want to do.
    Ms. Marshall, in your research, have you come across any 
specific paperwork requirements that actually help ensure 
student success in school?
    Ms. Marshall. I think very broadly, there--you can find 
useful data within what is collected. The point is what is--and 
Dr. Grimesey's comments very much get to this point. What 
culture is all of this creating? And the federal role, the 
federal accountability mechanism is a very blunt instrument. 
And to the degree that it dulls other instruments' abilities, 
those--the instruments of those sitting closer to the student 
it prevents greater effectiveness of our education system.
    So the precision tools that a teacher, a principal can use 
in diagnosing student progress are much more able to improve 
education in America than the blunt instrument of federal 
accountability measures.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Chairman Hunter. Thank the gentleman.
    Ms. Woolsey?
    Ms. Woolsey. Thank you very much.
    Ms. Marshall, I think I am quoting you right when you said, 
``accountability is certainly important,'' in your testimony. I 
am unclear what--who you are accountable to when you are a 
witness today. You work for the Heritage Foundation. You make a 
statement that you are not representing them today. Your 
position is not their position.
    So where is your expertise? Are you an educator? I mean, 
where does your expertise come in telling us how to deal with 
education issues? Or is this a philosophical statement, and you 
come from a place of opinions that you are passing on to us? I 
need to know that because I think it is very important in 
weighing what your testimony is, is it expertise or opinion?
    And in that, because what troubles me about your testimony 
and what I see as the testimony of the Heritage Foundation, is 
that you suggest that the Federal Government should not--should 
just give money to schools and that the Federal Government 
should not require paperwork and data to support that 
investment, but while at the very same time stating that 
schools must be accountable to parents. I don't understand how 
we hold schools accountable, prove their effectiveness without 
the data and reporting requirements. So that is a many-part 
question to you.
    Ms. Marshall. So I trained as a teacher and have great 
empathy with those who are working in classrooms to improve 
education in America. I have a great deal of passion and 
interest in seeing better schools and classrooms across the 
country. I have been working on and looking at ESEA for 15 
years, a third of the law's life, unfortunate to say that I 
have been here that long. And what we have seen is an 
accumulation of more and more programs, more and more spending 
without an improvement in education.
    Ms. Woolsey. Well, you said this earlier. So can you tell 
me, did you write your own testimony? Did you do your own 
research?
    Ms. Marshall. I did.
    Ms. Woolsey. Or did your staff at the Heritage Foundation?
    Ms. Marshall. It was a team effort, but we all did it.
    Ms. Woolsey. Yes, but you all did it. So how do you 
separate yourself from the people you are accountable to 
because you work for them?
    Ms. Marshall. I am sorry. These are my words. This is my 
point of view. And I have done it on the basis of research that 
we have published at the Heritage Foundation.
    Ms. Woolsey. We, the Heritage? That is right. Okay. That is 
good.
    So I would like to ask all of you a general question. Let 
us just pretend we can all agree on the data that we need to 
collect, the methods, the format for collecting. Would you 
support what it is going to cost to put this in place to have a 
compatible system nationwide? Now, you have to assume you like 
what we are doing. Would you support spending money on making 
it happen?
    Starting with you, Doctor.
    Mr. Grimesey. Congresswoman, I would always support you 
spending money on the things I like. [Laughter.]
    Ms. Woolsey. There you go.
    Mr. Grimesey. I have never expected to be asked that 
question when I came to Washington. I think everybody would, 
too.
    Obviously, I was invited here today because I have 
published articles in the state newsletter. And that got 
somebody's attention and felt that I could make a contribution 
today. And hopefully, I have presented myself as an individual 
who really is committed to the ideal, but who is confronted 
with the reality. And I have just sought to come today to offer 
some--just some reports on what we are seeing. I don't come 
here promising to be the person with the answers. And so, I 
appreciate the opportunity. Absolutely, if we could have better 
alignment between USDOE. There seems to be some suspicion on 
the committee that maybe Virginia is not, you know, applying 
the regulations the right way.
    Ms. Woolsey. Normal?
    Mr. Grimesey. And, you know, I just come with good faith 
that that--you know, that they are doing the best they can, 
just pointing out that there can be some work on that. But 
obviously, yes, if we could come up with clarity. But I would 
ask Congress to please be cautious with going in a direction 
where we start really drilling down----
    Ms. Woolsey. Well, we are assuming--in my question that we 
all agree. We have agreed to something. See, we do that, and 
then one-half of the Congress says, well, that is a great idea. 
We are not paying for it. So then it dies. So would you pay for 
it?
    Mr. Grimesey. You go home and say I had one dreamer.
    Ms. Woolsey. Mr. Willcox, would you pay for----
    Mr. Willcox. I think an investment in a data system could 
be a really worthwhile investment if it works. I think my 
advice would be--humble advice would be to look at large states 
like California who have tried to do something very similar, to 
have a data system that captures all of the student 
information, all of the teacher information. And it has taken 
us years. And we are still very much struggling with it. So I 
would say, yes, it is a--it would be a worthwhile investment.
    Yes, we could automate a lot of things that are necessary, 
as long as we don't lose sight of the outcomes-focused posture 
that I suggested earlier. But I would also suggest just as 
quickly that we look to the large states to see what they have 
struggled with so that we don't duplicate those same struggles 
at a nationwide scale, which would be horrendously complicated 
and very difficult to extract ourself from.
    Ms. Woolsey. Thank you.
    Chairman Hunter. Thank the gentlelady.
    Mr. Kelly?
    Mr. Kelly. Thank you, Mr. Chairman.
    And, all the witnesses, I would like to thank you for 
coming.
    I come from the private sector. And I have really found it 
helpful that you can have an open dialogue with the people that 
actually do the work as opposed to people who don't do the work 
and really have never done the work, but establish regulations 
and rules for you.
    And other than coming here today, do you have an 
opportunity to talk to the people in your state, education 
departments, or at the federal level on what it is that needs 
to be measured and how it should be measured as opposed to 
people--again, I think the recurring theme that I see in this 
model, government, is that there are unintended consequences 
and unfunded mandates that add nothing but burden on you that 
you can't meet and costs that you can't afford. And I am trying 
to understand do you ever have that opportunity to have that 
back and forth with the people that are actually making the 
rules, but have never played the game.
    And any of you can respond, or all of you could respond.
    Mr. Grimesey. Well, Congressman, I will just say that, yes, 
we do--in Virginia, we have a lot of access to our State 
Department of Education. And there have been many examples of 
where localities have offered input that has been taken very 
seriously by our state superintendent and our state board of 
education. What we have been referencing today are those 
conversations we have where both the state and the locality are 
scratching our heads trying to figure out what the Federal 
Government wants us to accomplish and how they want us to go 
about doing it.
    Mr. Kelly. So you do it at the state level? But federal 
level, you don't have that back and forth, that exchange?
    Mr. Grimesey. The only contact I have had with USDOE 
officials in the last--I would say, for 10 years--and that is 
not to say that I haven't tried to call or have been told by--I 
couldn't--would be the technical assistance workshop for the 
Race to the Top competition in Minnesota last year.
    Mr. Kelly. Okay.
    Mr. Grable. I echo the same comments. Quite a bit of 
conversations with our state department and some with our local 
representatives, but very little with the federal Department of 
Education.
    Mr. Willcox. I would say the same thing. We have access to 
our state department. I think the complexity, at least in our 
state, is the diversity of our state. We have got large urban 
areas like many states and lots and lots of rural areas that 
these needs are just so diverse. So it is not a matter for us, 
in my opinion, of being able to have a conversation or to be 
able to express an opinion. It is the reconciliation of all 
those different opinions across a large group of very diverse 
places serving very diverse populations with different needs.
    Ms. Marshall. And, Congressman, from the federal level, I 
would say that it is difficult to find local perspectives and 
state information on the compliance burden. And it is something 
that the Government Accountability Office ought to look into in 
an updated fashion.
    Mr. Kelly. No, you know, I have met with Mr. Dodaro from 
GAO. And, quite frankly, I don't know how anybody figures out 
how anything is going on in this country right now. We have 
over-regulated and over-burdened you so much with unneeded 
information and continued to do it and then invite you in here 
and then chastise you for coming in and giving witness.
    I have got to tell you. I appreciate what you are doing. I 
think it is very brave. And, please, don't give up on us. At 
some point, we are going to get it right. And we are going to 
be able to educate kids. I don't know how you mandate 
education. I don't know how you pass a law that says every 
child must be educated and must reach a certain level.
    I have always believed that true education will take 
place--the child that wants to learn, a teacher that wants to 
teach and a parent that supports both. My personal opinion is 
we need to have less government telling you what the rules 
should be. And they don't know. They have never done it. They 
have never walked the walk. They have talked the talk. But they 
have never walked the walk.
    So keep up what you are doing. And, in spite of the over-
regulation you face and the burdensome data that you have to 
collect for eyes that may never look at it, thank you for your 
efforts and what you are trying to do to help our kids and our 
future. Thank you.
    And I yield back.
    Chairman Hunter. Thank the gentleman.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    I want to first thank each of the witnesses for your 
testimony. I apologize for my late arrival. And I will try not 
to be repetitive in my question.
    First, I want to thank all of you being here and your 
written testimony, which gives us great resource of information 
and also, for those of us juggling between different hearings, 
the chance to get your sentiments even without hearing you here 
in person. And especially to our administrators, my sincere 
thanks for what you do every day.
    As a product of public education--and I have the privilege 
of commuting from my home in Pennsylvania every day. So I 
started this morning dropping my kids, two middle schoolers, 
sixth and eighth grade, at the same public middle school, then 
junior high when I went to that same building and was behind my 
parents' education, my K-12 teachers and administrators gave 
me. And now that same school district is giving my kids the 
greatest blessing I could have got, beyond the home.
    I guess the first question is we recently had a hearing 
on--in a different committee about duplicative programs. And 
GAO did a study mandated--Senator Coburn led the effort on how 
we can streamline the process and as it relates to paperwork 
and the burdensome requirements we place on you.
    One of the areas highlighted was more than 80 different 
teacher preparation programs that we have. And I was wondering 
if any of you have experiences as administrators or the 
Heritage Foundation in trying to access for your schools and 
your teachers any of those teacher prep. programs and looking 
at, well, you know, we want to do this, but we have paperwork 
for this program and then another teacher prep. program, 
additional paperwork.
    In other words, it is not just the cost of that 
duplication, but the burden that--you know, instead of having a 
streamlined teacher preperation assistance, that we have it 
over 80 different programs over multiple different departments 
and agencies, if you have any experience with that and the 
paperwork that goes with all those different 80-some programs.
    Mr. Willcox. Our teacher preparation program is a 
combination of a lot of things, traditional things that you 
would expect--supporting teachers to clear their credentials 
once they have graduated from a credentialing program. Most 
recently, we started a teacher residency program across our 
system of schools. And that program we have high hopes for. We 
have high hopes that we will be able to continue with it.
    Mr. Platts. I take it by the hesitancy that you are not 
necessarily accessing any of the 80-some programs that are out 
there, which maybe is good in that you are not spending that 
money. But it also means maybe there are programs that would 
benefit your districts that you are not aware of, even though 
we have 80-some different programs.
    Mr. Grable. Are you referring to pre-service teacher 
programs?
    Mr. Platts. No. They run the gamut. There are nine alone in 
science, technology, engineering, math--that focus on.
    Mr. Grable. Okay.
    Mr. Platts. But nine different programs instead of one. And 
so, when we talk about paperwork, that means we have nine 
different administrative requirements to access funding for the 
same issue within the Federal Government. So appreciate that 
you are not familiar with that.
    Mr. Grimesey. Congressman, the only thing I could add to 
that is that much of that money flows through the state. And 
then the state creates both pre-service and in-service 
opportunities that aren't always clear to the localities. That 
would be more of an SEA, USDOE program.
    All we know is we are told that this program is available. 
And we do take advantage of multiple programs, particularly for 
expanding the certification opportunities for teachers, 
teachers that are certified in one area and there is a high 
need that we have and the state recognizes that, then provides 
an opportunity for teachers to get multiple certifications, for 
example, in special education or math and science.
    Mr. Platts. Right. I am going to run out of time. Quickly--
and I apologize again. This may be repetitive. The number one 
area of paperwork or regulation that you would want us to make 
sure we are looking closely at--I think I know what the answer 
probably--or may be from my own districts. But if you want to 
highlight a certain area of regulation within education law 
that we should look at streamlining what we require of your 
districts.
    Mr. Grable. I don't know that I could identify one. It 
would be redundancies in all of them. I mean, there are 
redundancies in IDEA, in Title 1, High Ability, ELL. I mean, 
there are just redundancies throughout all of them that could 
be streamlined.
    Mr. Platts. The reason I say I would guess is back home, 
IDEA is where I hear the most concerns and maybe especially 
from the classroom teachers and the paperwork associated with 
simply doing the job. I have seen it as a parent. Both of my 
children have been in gifted programs, so it is from a 
different side. But----
    Mr. Grable. Again, I shared earlier that our state uses an 
electronic IEP format. So that creates efficiencies and reduces 
a great deal of that paperwork and inefficiencies that some may 
experience.
    Mr. Platts. Okay. Thanks again for your testimony and your 
work with--on behalf of our nation's children.
    Yield back, Mr. Chairman.
    Chairman Hunter. Thank the gentleman.
    I would once again like to thank the witnesses today. 
Really appreciate it. Appreciate your forthrightness and your 
testimony.
    And in closing, I would like to recognize the ranking 
member from Michigan, Mr. Kildee.
    Mr. Kildee. I thank you.
    First, I would like consent to submit about two pages of 
additional testimony.
    Chairman Hunter. Without objection.
    Mr. Kildee. And thank you very much, Mr. Chairman. We have 
had a very good panel here. I think there is agreement and some 
differences. But I think all of you have a passionate belief in 
good education.
    And, Mr. Chairman, you have put together a very good panel. 
And you have conducted a very good hearing. And as a former 
teacher, I, therefore, give you an A+. [Laughter.]
    Chairman Hunter. I appreciate it. But is that under a 
growth model or--where did I--I don't know where I started at. 
Thank the gentleman.
    You know, I would like to say this seems more in a 
technical realm we could have this hearing with some very smart 
information systems, maybe some librarians, some people who 
catalogue data for a living, data about data and data about the 
data about the data, et cetera, all the way down to 
infinitesimal points, which we have to be able to bring out. 
One thing I don't really understand is this is all stuff that 
is being done in industry. It is being done in the NFL. I 
mentioned it before.
    When you watch a football game, you have information about 
a football player down to Pop Warner. And all of this 
information is assembled over a lifetime. And it is put 
together. And it has metadata, which is able to call it out and 
the way that queries are written.
    What I don't understand, I guess, and it is going to be our 
job to look at this or the states' jobs to look at this, is if 
you put data into a repository--I used to do databases. I used 
to do programming database management, all kinds of stuff that 
was not as fun as sitting right here. But it is doable. And 
everybody else does it.
    And you all talk about you sending information to the 
state, to the Federal Government. Well, when in reality, I 
think it is incumbent upon those people that want your 
information to reach out and grab it. And that is very doable, 
is it not?
    Would you agree that that is doable, to reach out and grab 
the information from you? So I think we need to look at it like 
that, if anything. It is incumbent upon the people that want to 
get at your data. It is not your job to manufacture ways and 
contrivances to get that data out. If the Federal Government 
wants to know some information, even if they don't need it--let 
us say they just want to know about it--or states want to get 
at some information, well, you all have already compiled that 
in whatever format you have. And it is very simple to make 
that, as Mr. Scott said, workable with any type of a query for 
any type of a database.
    Anyway, that is something that we need to work on. But I 
think you all agree that the Federal Government is onerous 
sometimes. But, as Mr. Grable said and all of you attested to, 
it is still needed in some ways to ensure that we do really 
push our children towards success. But there has to be a limit. 
And right now, there isn't one. And that is what we are here to 
fix.
    So with that, thank you. There being no more business to 
discuss, the committee stands adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
